<html>
<title> - NATIONAL MALL</title>
<body><pre>[Senate Hearing 109-45]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 109-45

                             NATIONAL MALL

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   TO

REVIEW MANAGEMENT AND PLANNING ISSUES FOR THE NATIONAL MALL, INCLUDING 
   THE HISTORY OF DEVELOPMENT, SECURITY PROJECTS, AND OTHER PLANNED 
               CONSTRUCTION, AND FUTURE DEVELOPMENT PLANS

                               __________

                             APRIL 12, 2005


                       Printed for the use of the
               Committee on Energy and Natural Resources

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
21-726                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               JON S. CORZINE, New Jersey
GORDON SMITH, Oregon                 KEN SALAZAR, Colorado
JIM BUNNING, Kentucky

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                    CRAIG THOMAS, Wyoming, Chairman
               LAMAR ALEXANDER, Tennessee, Vice Chairman

GEORGE ALLEN, Virginia               DANIEL K. AKAKA, Hawaii
RICHARD M. BURR, North Carolina      RON WYDEN, Oregon
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
GORDON SMITH, Oregon                 JON S. CORZINE, New Jersey
                                     KEN SALAZAR, Colorado

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Thomas Lillie, Professional Staff Member
                David Brooks, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     2
Childs, David M., Chairman, Commission of Fine Arts..............    16
Cogbill, John V., III, Chairman, National Capital Planning 
  Commission.....................................................    11
Cooper, Kent, Coordinator, National Mall Third Century Initiative     8
Parsons, John, Associate Regional Director for Lands, Resources 
  and Planning, National Capital Region, National Park Service...     3
Salazar, Hon. Ken, U.S. Senator from Colorado....................    19
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    29

                              Appendix II

Additional material submitted for the record.....................    43

 
                             NATIONAL MALL

                              ----------                              


                        TUESDAY, APRIL 12, 2005

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:31 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. The committee will come to order.
    Thank you all for being here. I want to welcome John 
Parsons from the National Park Service and our other witnesses 
for today's subcommittee hearing.
    The purpose of our hearing today is to receive testimony on 
the history of the National Mall, current construction 
projects, and security efforts, and the future for the Mall.
    Without a doubt, the National Mall is a special place to 
the country and to its government. It serves as a gathering 
place for special events and as a place for commemorating the 
history of our Nation, its struggles, and its leaders.
    Each morning as I go to work, I admire the beauty of the 
Mall and the monuments and all those things and the symbols of 
major events and the people of this Nation.
    During the last few years, we have had several substantial 
additions and changes to the Mall: the FDR, the Korean War, and 
the World War II memorials, as well as the Vietnam Memorial 
Visitors Center, and the American Indian Museum. So to continue 
to make additions is a question I think that we all have.
    I wanted to read this little portion. Concerned with the 
number of new commemorative works authorized and constructed on 
the Mall, Congress amended the Commemorative Works Act in 2003 
to declare the Mall to be ``a substantially completed work of 
civic art.'' The 2003 amendments defined the Mall and certain 
adjacent areas as the Reserve and prohibited the construction 
of any new memorial or visitor center within that area. The 
2003 amendments also, for the first time, provided a formal 
legislative definition of the Mall, defining it as an area 
extending ``from the U.S. Capitol to the Lincoln Memorial, from 
the White House to the Jefferson Memorial.''
    History has brought many changes to the National Mall that 
reflect progression of the Nation's development. The National 
Mall stands at the doorstep of its third century. In order for 
this premier civic landscape to maintain the highest degree of 
integrity, a concerted planning effort is needed. The public, 
government agencies, private entities, advocacy groups 
concerned with the future of the Mall must work together. In 
doing so, they have the opportunity to plan a vision of the 
National Mall for the next century.
    So that is really, I think, our challenge here today as we 
approach it here. We have to talk about where will visitors 
park in the future, where will they get all the public sites. 
Does the National Park Service intend to expands the tour 
mobile operation? Does the National Park Service have a master 
plan for the Mall? Does Congress need to establish a planning 
group similar to the McMillan Commission for the next century? 
These are only a few of the questions that we have.
    So we will move on. Senator, do you have any opening 
comments?

        STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. Thank you very much, Mr. Chairman. Thank you 
for scheduling this hearing on issues affecting the National 
Mall. It is very appropriate for the subcommittee to not only 
look at the immediate issues concerning the Mall but also to 
the Mall's long-term management and its development.
    Generally, our subcommittee hearings cover legislative 
proposals, so we typically consider Mall-related issues on a 
piecemeal basis, one new memorial or visitor center at a time. 
However, it is important that we also look at the bigger 
picture so we can address the complete vision of how the Mall 
could be and what it should be.
    The National Mall is a unique area, serving many important 
purposes. It is home to many of the most significant icons of 
our country. It is also one of the most visible places in the 
Nation for public protests and marches and other First 
Amendment expressions, and it is a very important recreational 
area for large celebrations such as the Fourth of July 
festivities, the Cherry Blossom Festival, and smaller, everyday 
activities such as family picnics, jogging, and softball games.
    As the number of monument and museum proposals has 
increased over the years, many have expressed concern about 
over-development of the Mall. In response and based in large 
part on the recommendations of the agencies appearing here 
today, Congress passed legislation in 2003 precluding the 
construction of new memorials or visitor centers on the Mall. 
However, we still face pressure to approve additional memorials 
in locations of prominence that will satisfy memorial 
proponents.
    An additional issue involves the ongoing construction of 
the national security projects around many of these memorials. 
While I do not question the need to ensure that appropriate 
security needs are addressed, I am concerned that large 
portions of the Mall have been essentially closed to public use 
for long periods of time. Although the Washington Monument has 
just reopened to visitors after a lengthy closure, the monument 
grounds continue to be fenced off. Likewise, public access to 
the Jefferson Memorial is now much more difficult with the 
closure of the adjacent parking lot. I hope to hear more from 
the Park Service today about the steps that it is taking to 
ensure that fences, barricades, and walls will not be the most 
prominent features of the Mall.
    Finally, I hope to learn more about proposals for expanding 
the Mall or creating other areas about the capital to allow for 
the commemoration of important events in our Nation's history. 
There have been several proposals such as the National Capital 
Planning Commission's Legacy Plan and the National Coalition to 
Save Our Mall's Third Century initiative.
    I would like to welcome our four distinguished witnesses 
today to the hearing. This should be a very informative hearing 
and I look forward to their testimony.
    Thank you very much, Mr. Chairman.
    Senator Thomas. Thank you, Senator.
    It is interesting and, of course, historic. Another little 
piece out of the background. The National Mall's origins are as 
old as the capital itself. The open space and the parks 
envisioned by the Pierre L'Enfant's plan, which was 
commissioned by George Washington, created an ideal stage.
    Then down a little further it is kind of interesting. In 
1892, acknowledging the grounds represented more than merely a 
physical setting of buildings, Congress separated the Federal 
management of grounds from buildings with the creation of the 
National Capital Park System.
    So this is something that has been going on for a long 
time, and as we should in most things, I hope we can sort of 
develop a vision of what we think the Mall ought to look like 
in 10 or 20 or 50 years from now so that in the interim we can 
do the things that will cause it to be what we want it to be at 
that time.
    Let us welcome our witnesses this morning. We are very 
pleased to have you all here. Mr. John Parsons, Associate 
Regional Director for Lands, Resources, and Planning, National 
Capital Region, National Park Service; Mr. Kent Cooper, 
architect, Washington, DC; Mr. John Cogbill, Chairman, National 
Capital Planning Commission; and Mr. David Childs, Chairman of 
the Commission of Fine Arts. If you will take your places up 
here, gentlemen, thank you.
    We are going to have some votes in a little less than an 
hour, so we are going to try and move through this fairly 
expeditiously, but we want to hear all that you have to say. 
Your full statements will be put into the record.
    Mr. Parsons, if you would care to start, sir.

         STATEMENT OF JOHN PARSONS, ASSOCIATE REGIONAL 
          DIRECTOR FOR LANDS, RESOURCES AND PLANNING, 
         NATIONAL CAPITAL REGION, NATIONAL PARK SERVICE

    Mr. Parsons. Thank you, Mr. Chairman. Yes, I will 
abbreviate the testimony that has been provided to you so that 
can be inserted in the record so we can move along.
    I want to thank you and members of the subcommittee for 
bringing these hearings forward. It is a very important time in 
this city.
    I am John Parsons, Associate Regional Director of the Park 
Service here in Washington, and it is my pleasure to appear 
before you today to talk about the future of the National Mall. 
We are extremely proud to be the stewards of the Nation's front 
yard, which has become known as the National Mall.
    In 1791, at the direction of President Washington, Pierre 
L'Enfant, a French engineer, produced a plan for the Nation's 
capital. The L'Enfant plan, which is shown behind me here, 
delineated an east-west boulevard that extended from the hill 
upon which the Capitol would be located, one mile west to a 
site he identified for the Washington Monument. There it 
intersected with the north-south axis to a hill where he sited 
the President's house. But by the end of the 19th century, the 
area was a patchwork of inconsistent and fragmented uses, as 
you can see here.
    In 1900, Senator James McMillan, who was chairman of the 
District of Columbia, recognized the erosion of the L'Enfant 
plan and established a commission to study the issue. The 
commission's McMillan Plan doubled the size of the Mall by 
extending its east-west axis, one mile to the site of the 
Lincoln Memorial and one-half mile to the south, which is 
anchored by the Jefferson Memorial.
    In 1910, the Congress established and charged the 
Commission of Fine Arts to ensure that the McMillan Plan for 
the National Mall was completed with the highest degree of 
civic art. In 1926, Congress established the National Capital 
Planning Commission to ensure the continuation of good planning 
for the city in the tradition of L'Enfant and McMillan. One of 
the McMillan Commission's recommendations had been to place the 
National Mall under the administration of one agency to avoid 
the re-emergence of the patchwork of competing and conflicting 
uses.
    In 1935, the National Park Service was given the 
responsibility of managing this park. The NPS implemented the 
grand axis of the Mall by removing hundreds of trees and the 
informal gardens that existed and replacing them with the elm 
tree panels that you see here that are the Mall's centerpiece 
today. And they did not have to do an environmental impact 
statement.
    [Laughter.]
    Mr. Parsons. The result of the successful implementation of 
the L'Enfant and McMillan plans is a uniquely designed American 
landscape, one that must remain as open and energetic as our 
democracy.
    As the 20th century drew to a close, it became apparent 
that implementation of all remaining elements of the McMillan 
Plan that were feasible were being completed. In 1990, the NCPC 
initiated a new public planning process for the city's urban 
core. This framework plan was completed by NCPC in 1997 to 
guide the long-term growth and is called Extending the Legacy. 
The Legacy Plan, shown behind me, protects the integrity of the 
National Mall as we know it today, and establishes North, 
South, and East Capitol Streets as the axis of new growth for 
commemorative works and museums. This vision built upon and 
replaced the McMillan Plan with a vision for the 21st century.
    On November 17, 2003, under your leadership, Mr. Chairman, 
Congress concurred with the principles of the Legacy Plan and 
declared the National Mall a completed work of civic art by 
establishing the Reserve. The National Mall is now protected 
from any future construction of memorials. The Reserve, 
together with the Legacy Plan, has lessened urgent development 
pressures on the National Mall and thus created an ideal 
circumstance for the National Park Service to begin the 
planning for long-term preservation and enhancement of this 
historic landscape.
    We are working with NCPC and the District of Columbia to 
enhance the development of South Capitol Street as a major 
corridor in the city. South Capitol Street will become a grand 
boulevard with a major urban park at its terminus on the 
Anacostia River. This boulevard is envisioned as an adjunct to 
the monumental core that will evolve and mature with its own 
identity like other special avenues in the Nation's capital, 
such as Pennsylvania, Connecticut, or Massachusetts Avenues.
    In 2003, the National Park Service entered into a 
partnership agreement with the Trust for the National Mall, a 
private, nonprofit organization, which was established to 
assist us in raising funds for the enhancements to move the 
National Mall to a new level of excellence. While the National 
Park Service's 1972 plan for the National Mall and subsequent 
plans for parts of the area provide guidance, we acknowledge 
there is no single current plan focusing on the long-term 
management of the National Mall. This is something we intend to 
rectify.
    We have begun a public planning process that would result 
in the National Mall comprehensive management plan. The plan 
will examine the following issues: enhance the identity of the 
National Mall; preservation of the historic landscape and 
character; maintenance of the National Mall for First Amendment 
activities, special events, and national cultural heritage, and 
recreation; accommodation of jurisdictional missions of the 
National Park Service and neighboring agencies.
    In conclusion, I would like to thank Chairman Thomas for 
his leadership in the protection of the National Mall, 
particularly the careful study and development of the area now 
established as the Reserve. Your stewardship of this special 
place has enabled us to keep intact the core of President 
Washington's intended planning for our Nation's front yard. 
Thank you, Mr. Chairman.
    [The prepared statement of Mr. Parsons follows:]

  Prepared Statement of John Parsons, Associate Regional Director for 
 Lands, Resources and Planning, National Capital Region, National Park 
                                Service

    Mr. Chairman and members of the subcommittee, it is my pleasure to 
appear before you today to discuss the National Park Service's 
management and planning for the National Mall.
    The National Park Service is extremely proud to be the steward of 
the nation's front yard, which has come to be known as the National 
Mall. Designed by Pierre L'Enfant and established by President George 
Washington and Thomas Jefferson in 1791, this grand open space has been 
jointly nurtured and guided by the Executive, Congressional, and 
Judicial branches of government for over two centuries.

                   L'ENFANT PLAN--19TH CENTURY VISION

    In 1791, Pierre L'Enfant, a French designer, established a plan to 
serve as the framework for the Capital city of Washington, DC. This 
plan, known as the L'Enfant Plan, (Exhibit A)* delineated an east/west 
boulevard that extended from the hill upon which the Capitol would be 
located, one mile west to a site identified for the Washington 
Monument, where it intersected with the north/south axis where he sited 
the President's house on a hill to the north. While the design of the 
L'Enfant Plan remains in place today, implementation during the 19th 
century was slow to non-existent. In fact, by the end of the 19th 
century, the area was a patchwork of, in some cases, jarringly 
inconsistent and fragmented uses, such as a railroad station and 
individual landscapes managed by a host of different agencies and 
organizations.
---------------------------------------------------------------------------
    * The exhibits have been retained in subcommittee files.
---------------------------------------------------------------------------
                   MCMILLAN PLAN--20TH CENTURY VISION

    In 1900, Senator James McMillan, who was chairman of the committee 
on the District of Columbia, recognized the erosion of the L'Enfant 
Plan for the area and the city at large. He created a commission of 
preeminent architects, planners, and designers who created a new vision 
that reinforced L'Enfant's principles and restored the area's historic 
sweep. This 1901 plan, known as the McMillan Plan, (See Exhibit B) 
doubled the area's size by extending its east/west axis one mile to the 
site of the Lincoln Memorial, and one-half mile to the south, which is 
anchored by the Jefferson Memorial on axis with the White House. This 
grand plan has resulted in this magnificent landscape, which is the 
National Mall. Flanked by federal museums that contain our national 
treasures and punctuated by national memorials that celebrate our 
nation's most important persons and events, the National Mall has 
evolved into a powerful symbol of democracy for this nation throughout 
the world.
    In 1910, Congress established and charged the Commission of Fine 
Arts to ensure that the McMillan Plan for the National Mall was 
completed with the highest degree of civic art. In 1926, Congress 
established the National Capital Planning Commission (NCPC) to ensure 
the continuation of good planning for the city in the tradition of 
L'Enfant and McMillan. In 1935, the National Park Service was given the 
responsibility of managing this park where the people of this country 
and the world come for education, celebration, demonstration, and 
recreation. One of the McMillan Commission's recommendations had been 
to place the National Mall under the administration of one agency to 
avoid the re-emergence of the patchwork of competing and conflicting 
uses.
    While widely supported, the McMillan Plan was not without 
detractors. Even with the hard work and perseverance of Congress, the 
Executive Branch, and others, restoring L'Enfant's vision through the 
implementation of the McMillan Plan took most of the 20th Century. The 
result of the successful implementation of the L'Enfant and the 
McMillan Plans is a uniquely designed American landscape--one that must 
remain as open and energetic as our democracy. We have managed this 
public space for the American people with care and in consultation with 
adjacent Federal agencies under the McMillan Plan guidance.

                    LEGACY PLAN--21ST CENTURY VISION

    As the 20th Century drew to a close, it became apparent that, with 
the completion of the Franklin Delano Roosevelt Memorial, World War II 
Memorial, and National Museum of the American Indian, implementation of 
all the remaining elements of the McMillan Plan that were feasible 
would be complete. At the same time, there was increasing concern about 
the growing number of proposals for memorials and museums being placed 
on the National Mall. Consequently, in 1990, the NCPC initiated a new 
public planning process for the city's urban core. As with the McMillan 
Plan, the NCPC engaged a group of preeminent architects, planners, and 
designers to assist in this effort. This framework plan was completed 
by the NCPC in 1997 to guide long-term growth and is called ``Extending 
the Legacy,'' as it is based on the legacy of the two landmark plans, 
the L'Enfant Plan and the McMillan Plan. The Legacy Plan (See Exhibit 
C) protects the integrity of the National Mall, as we know it today, 
and, among its recommendations, it establishes North, South, and East 
Capitol Streets as they radiate from the Capitol, as the axis of new 
growth for commemorative works, museums and other public facilities. 
The National Park Service supports the goals and vision of the Legacy 
Plan as the 21st Century plan for the nation's Capital and will 
continue to work with others toward its successful implementation.

              THE COMMEMORATIVE WORKS ACT AND THE RESERVE

    In 1986, following what some characterized as ``monumental chaos'' 
over the Vietnam Veterans Memorial, which was dedicated in 1982, 
Congress enacted the Commemorative Works Act to guide the process for 
establishing memorials in the nation's Capital. The Commemorative Works 
Act sets forth the requirements on subject matter, siting, and design 
of memorials. It also creates the procedure for establishing memorials 
on parkland, including the approval of both site and design by National 
Capital Planning Commission, the Commission of Fine Arts, and the 
Secretary of the Interior. Since its enactment, the Commemorative Works 
Act has played an important role in ensuring that memorials in the 
nation's Capital are erected on the most appropriate sites and are of a 
caliber in design that is worthy of their historically significant 
subjects.
    On November 17, 2003, under your leadership, Mr. Chairman, Congress 
concurred with principles of the Legacy Plan and declared the National 
Mall complete by establishing the Reserve (See Exhibit D) through an 
amendment to the Commemorative Works Act. With the creation of the 
Reserve under Public Law 108-126, the National Mall is now protected 
from any future construction of memorials or museums within this 
completed work of civic art. Your Congressional action creating the 
Reserve, together with the Legacy Plan's refocus on the importance of 
the Capitol, has lessened urgent development pressures on the National 
Mall and thus created ideal circumstances for the National Park Service 
to begin the planning for long-term preservation and enhancement of 
this historic landscape.

                            ONGOING PLANNING

    The National Park Service is working with current memorial 
proponents to ensure that siting of memorials is guided by the 
Memorials and Museums Master Plan. This 2001 master plan was an 
outgrowth of the Legacy Plan and redirects proponents away from the 
Reserve to worthy sites throughout the city as well as sites in the 
Monumental Core, which extends from the Capitol to the Lincoln Memorial 
and Arlington Cemetery and from the White House to the Potomac River. 
We currently are working with the proponents of seven Congressionally 
authorized memorials and are guiding them to sites identified in the 
Memorials and Museums Master Plan. Four memorials have already received 
site approvals using the Master Plan.
    The National Park Service is working with NCPC and the District of 
Columbia to support the South Capitol Street corridor that will enhance 
the river park system, Mayor Anthony Williams' Anacostia Waterfront 
Initiative, and the site for the new baseball stadium. As proposed, 
South Capitol Street would become a grand boulevard with a major urban 
park at its terminus on the Anacostia River. (See Exhibit E) A 
revitalized South Capitol Street is the centerpiece of the Mayor's 
Initiative and would be invigorated through major private investment in 
mixed-use development, including cultural institutions, housing, and 
retail. While South Capitol Street would provide multiple sites for 
cultural institutions, museums and memorials as well as parkland, it is 
not envisioned that this streetscape would be managed by the National 
Park Service. The revitalization of South Capitol Street will ensure 
that sites for major memorials are set aside for future generations as 
called for in the Legacy Plan and the Memorials and Museums Master 
Plan. While the Legacy Plan establishes the framework for these 
emergent areas north, and south of the Capitol, these areas are 
envisioned as adjuncts to the Monumental Core that will evolve and 
mature with their own identity, like the other special avenues in the 
nation's Capital such as Connecticut or Massachusetts Avenues.
    In 2003, the National Park Service entered into a partnership 
agreement with the Trust for the National Mall, a private nonprofit 
organization established to assist in the raising of funds for 
enhancements. The agreement authorizes the Trust to raise funds and in-
kind donations for National Park Service restoration, revitalization 
and maintenance projects. The agreement is part of a long-term 
partnership designed to enhance the National Mall's prominence and 
relevance to the diverse communities it serves. Funds raised by the 
Trust are intended to move the National Mall to a new level of 
excellence.
    The National Park Service has numerous projects under construction 
involving the roads, security, and environs of the memorials and 
symbols of our democracy as well as the streets and avenues of the 
National Mall, including the preservation of the Lincoln and Jefferson 
Memorials, security improvements designed to be compatible with the 
historic character of the Washington Monument and Lincoln and Jefferson 
Memorials, and pedestrian and traffic safety improvements at Lincoln 
Circle and at Ohio Drive along the Potomac River. These projects have 
all benefited from the public planning process used by the National 
Park Service in their development.
    Despite the fact that in considering these projects, the National 
Park Service assessed the effect of each on the National Mall, there, 
nevertheless, have been concerns expressed that planning for individual 
projects erodes the overall integrity of the National Mall. We have 
listened to these concerns and seek to address them.
    While the National Park Service 1972 plan for the National Mall and 
subsequent plans for parts of the area provide guidance, we acknowledge 
there is no single current plan focusing on National Park Service 
management of the National Mall. This is something the National Park 
Service intends to rectify. The National Mall regularly experiences 
extremely high levels of use and landscape conditions have suffered. 
This must be addressed in planning. The planning process must be open 
and inclusive--the witnesses today and the American public will all be 
participants with us in this important effort to preserve existing 
landmark plans by planning for future use. The National Park Service 
has begun a public planning process that would result in the National 
Mall Comprehensive Management Plan. The plan will examine the following 
issues:

  <bullet> enhancement of the identity of the National Mall,
  <bullet> preservation of the historic landscape and character,
  <bullet> improved landscape maintenance,
  <bullet> maintenance of the National Mall for First Amendment 
        activities, special events, and national cultural heritage and 
        recreation,
  <bullet> sustainable use levels,
  <bullet> accomodation of jurisdictional missions of the National Park 
        Service, District of Columbia, Architect of the Capitol, 
        General Services Administration, Smithsonian, and the National 
        Gallery of Art,
  <bullet> preservation and protection of the open space of the Reserve 
        in fulfillment of legislative mandates, and
  <bullet> continuation and support of a vibrant urban life.

    Everyone here cares deeply about the National Mall and is concerned 
about maintaining its open space and character for the future. Historic 
planning sets an indelible course, one that continues to enrich our 
nation. Planning now for future use and preservation is vital.
    In conclusion, I would like to thank Chairman Thomas for his 
leadership in the protection of the National Mall, particularly the 
careful study and development of the are now established as the 
Reserve. Your stewardship of this special place has enabled us to keep 
intact the core of President George Washington's intended planning for 
our nation's front yard. This concludes my prepared remarks. I will be 
pleased to answer any questions you or other members of the 
subcommittee may have.

    Senator Thomas. Thank you very much.
    Mr. Cooper.

  STATEMENT OF KENT COOPER, COORDINATOR, NATIONAL MALL THIRD 
                       CENTURY INITIATIVE

    Mr. Cooper. Thank you, Mr. Chairman and members of the 
subcommittee, for conducting this hearing today and providing 
us with an opportunity to share our views. My name is W. Kent 
Cooper. I am the coordinator for the task force work that is 
being undertaken by the National Mall conservancy, the Third 
Century Mall initiative.
    This initiative is a product of the National Coalition to 
Save Our Mall. It is a volunteer organization focused on the 
preservation and enhancement of the National Mall.
    Over the last 18 months, through a series of public forums 
and meetings, the public has spoken very strongly of their 
concerns about the state of the National Mall and their 
interest in preserving it for a third century.
    The National Mall already embodies two great visions, as 
John has said, the L'Enfant Plan of 1791 and the McMillan Plan 
of 1902. Today we need to renew these historic concepts and 
plan for the next 100 years.
    We have three main points to share with you today.
    One, in the 20th century, the Mall took on a new meaning 
for the public. It became the stage for our democracy, a place 
of celebration, recreation, demonstration, and healing. Now we 
need to create policies that enhance that public use, rather 
than restrict that use.
    Two, the existing Mall is not visitor friendly. When your 
constituents come to the Mall this summer, they are going to 
find numerous barriers, few places to sit, little convenient 
and good food, long walks in the hot sun to get from place to 
place. The Mall needs more visitor amenities, including more 
things to do in the public open space.
    Three, the Mall is full. Congress recognized this problem 
and issued the moratorium, at least some memorials and visitor 
centers. But history cannot be stopped. Future generations will 
want to build memorials and some will deserve a place on the 
Mall. The Mall should expand and meet this need as it did a 
century ago. In short, the Mall needs a vision to carry us into 
the next 100 years, a Third Century Mall.
    There is room to expand. Readily available Federal open 
land, together with public rights of way, such as South Capitol 
Street and the L'Enfant Promenade, would create a continuous 
route from the Capitol to the Lincoln Memorial, along a 2-mile 
stretch of the Potomac River front. We need only to bridge the 
Washington Channel to complete that loop.
    In order to plan for the Mall's future, we also need to 
confront certain administrative problems.
    First, the Mall needs to be more carefully defined. The 
Congressional Research Service found that there is no agreement 
as to where the Mall begins and ends.
    Second, at least seven different agencies have management 
authority over the Mall. A coordinating body is desperately 
needed.
    We call upon Congress to take the following actions. For 
the long term, establish a National Mall conservancy or a board 
of regents. Such an entity would establish and maintain key 
operating policies for the entire Mall in collaboration with 
the Federal stakeholders and the public.
    This board should also be responsible for long-term master 
planning, including the assembling of a McMillan-type 
commission to develop a vision for the next 100 years, the 
Third Century Mall vision.
    And finally, the board should report to Congress regularly 
on the state of the National Mall.
    Now, in the short run, there are several steps Congress 
could take while the conservancy or board of regents is being 
formed. We ask Congress to begin now drafting legislation which 
declares the National Mall to be a single entity, encompassing 
all of the lands under the jurisdiction of the various 
stakeholders, extending from the Capitol and including the 
Capitol to the banks of the Potomac.
    And we ask Congress to authorize several pilot projects 
which might make the Mall more visitor friendly. The Third 
Century initiative has already begun work on one of these. We 
are now completing the first-ever Mall map and historic guide. 
A mock-up of this is in your packet.
    Several other projects have been studied but not begun. We 
ask Congress to authorize the initiative to develop, coordinate 
with the Park Service, and implement several trial projects, 
some of which might be in place by even this summer. A priority 
would be a pilot food cart and park furniture program, possibly 
modeled on the recent visitor friendly renovation of Bryant 
Park in New York City.
    In conclusion, in order to help all of us understand what a 
Third Century Mall might be like, we prepared a sketch. You 
have it in your possession I think. Can we uncover the sketch 
here please? Many other possibilities exist for this.
    I thank you very much.
    [The prepared statement of Mr. Cooper follows:]

     Prepared Statement of Kent Cooper, Coordinator, National Mall 
                        Third Century Initiative

    Thank you, Mr. Chairman and Members of the Subcommittee for 
conducting this hearing today and providing us with an opportunity to 
present our views on the Third Century Mall. We appreciate and admire 
the leadership you have brought to this subject.
    The Third Century Mall Initiative, a project of the National 
Coalition to Save Our Mall, is a volunteer organization dedicated to 
the preservation and enhancement of the National Mall for future 
generations.
    Over the last 18 months through a series of public forums and 
meetings, the public has spoken very strongly about their concerns 
about the state of the Mall, as well as their strong interest in 
preserving it in a lasting fashion for its Third Century.
    The National Mall represents the legacy of two great visions, the 
L'Enfant Plan of 1791 and the McMillan Plan of 1901-1902. For 200 years 
L'Enfant's original concept of the Mall as symbol of our founding 
ideals and place of the People has been changing and growing to meet 
the needs of our democracy. Today, with the Mall facing urgent issues 
and problems, we need to renew the Mall's historic concept and plan for 
the next one hundred years.
    We have three main points:

    1. As the Nation grew and evolved, the Mall took on new meaning for 
the public in the twentieth century.
    Its public open space became the stage for our democracy--a place 
of celebration, recreation, demonstration, and healing. Today's Mall is 
as much about public use of the open space as it is about memorials and 
museums. But increasingly the Mall is being treated as a theme park, to 
be experienced by tour bus. We need to create policies that enhance 
public use rather than restrict it.
    2. The existing Mall is not visitor friendly.
    When your constituents come to the Mall this summer, they're going 
to find barriers, too few places to sit, lack of convenient and good 
food, and long walks in the hot sun to get from place to place. The 
Mall needs more visitor amenities and things to do in the public open 
space.
    3. The Mall is full.
    Congress recognized this problem and issued a moratorium on further 
memorials and visitor centers. It declared the Mall a ``substantially 
completed work of civic art.'' The National Capital Planning Commission 
named numerous new building sites around the city with its Memorials 
and Museums Master Plan. But history can't be stopped. Dozens of 
memorial projects are already waiting for sites. Future generations 
will want to build memorials and some will deserve a place ``on the 
Mall.'' The Mall should expand to meet this need, as it did a century 
ago.

    In short, the National Mall needs a vision to carry us into the 
next 100 years--a Third Century Mall. The vision should recover and 
renew the Mall's historic concept as the People's place. And it should 
allow the Mall to expand and continue to commemorate our nation's 
memories in inspiring memorials and majestic public open space.
    There is room to expand. Readily available federal open land with 
public rights of way such as South Capitol Street and the L'Enfant 
Promenade would create a continuous route from the Capitol to the 
Lincoln Memorial along a two-mile stretch of the Potomac riverfront. We 
need only to bridge the Washington Channel to complete the loop. This 
concept, devised by the National Mall Third Century Initiative, would 
be as sensitive to today's environment as was the Beaux-Arts/City 
Beautiful concept to McMillan.
    This sketch is not offered as a formal design, rather as a vision. 
There are many other possibilities for such an expansion.
    In order to plan for the Mall's future, we also need to confront 
certain administrative problems.

    1. The Mall is undefined.
    The Initiative found that there is no agreement as to where the 
Mall begins and where it ends. The Congressional Research Service 
confirms this finding. The Mall needs to be defined.
    2. Management of the Mall is fragmented.
    At least seven separate agencies have management authority over the 
Mall. The Mall needs a coordinating body.

    As the ultimate steward of the Mall, Congress has an important role 
to play in determining the future of this national treasure. 
Accordingly, we call upon Congress to take the following long-term and 
short-term actions.
    LONG TERM: Congress should establish a National Mall Conservancy or 
a Board of Regents. This entity would establish policies for the entire 
Mall in collaboration with the federal stakeholder agencies and the 
public and would continually review and update those policies. Similar 
to the Board of Regents for the Smithsonian Institution--which Congress 
recently directed to solve site selection for the African-American 
Museum--this Board would strengthen Congressional oversight of the 
Mall. It should be composed of members of Congress and distinguished 
Americans--historians, business leaders, planners, artists, and 
educators of national stature.
    The Board should be authorized by Congress to be responsible for 
long-term master planning, including:

    1. Assembling a year-long, McMillan-type Planning Commission to 
develop a long-term vision for the next 100 years--the Third Century 
Mall. The vision would include enhancing the existing Mall as well as 
expanding it to create a Third Century Mall. Once completed, that 
framework would be used by all stakeholders as well as by the review 
agencies to guide future development.
    2. Developing policies such as Mall-wide security, access, permits, 
public use, transportation, parking, and visitor amenities.
    3. Reporting regularly to Congress on the state of the Mall.

    SHORT TERM: There are several steps Congress could take now while 
the Conservancy or Board of Regents is being formed. We ask Congress to 
immediately:

    1. Draft legislation that declares the National Mall a single 
entity encompassing all the lands under the jurisdiction of the various 
stakeholder agencies and extending from the Capitol to the banks of the 
Potomac.
    The legislation should take note of the evolving nature of the Mall 
and allow for its future expansion. This statutory definition would 
form the basis of all future planning.
    2. Authorize several pilot projects to make the Mall more visitor 
friendly.
    The Third Century Initiative has already begun work to answer some 
of the Mall's needs. We are now completing our first project--a first-
ever Mall map and historic guide. The Initiative is funding this 
project as a public service.
    We ask Congress to authorize the Third Century Initiative to 
develop, coordinate with the National Park Service and other 
stakeholders, and implement a few short-term, trial projects, some of 
which could be in place for this summer. These projects could be 
evaluated after three months and either renewed or retired. A priority 
would be a trial food cart and park furniture program, perhaps modeled 
on the recent visitor-friendly renovation of Bryant Park in New York 
City.
    Other projects that could be implemented in coming months include 
musical and theatrical performances and a turf grass demonstration 
program.
    Creating a First Amendment Park on the Mall--perhaps a simple 
landscaped area at the foot of Capitol Hill--is another idea. Similar 
to Speaker's Corner at Hyde Park in London, it would reinforce the 
Mall's core symbolism while offering individuals an inspiring symbolic 
place to exercise free speech.
    In conclusion, the public has stated its concerns and they are 
real. We see today the effects of the barricades, lack of access, and 
disjointed amenities. You have given us a wonderful opportunity today 
to address these concerns and propose ways to improve in the short-term 
some of the immediate difficulties the public faces, and to sculpt a 
comprehensive and lasting memorial for all people--the Third Century 
Mall. Yes, there are challenges, but there are also prospects for 
greatness.
    I am happy to expand on any of these ideas.

    Senator Thomas. We do have the papers that you mentioned.
    Mr. Cogbill.

 STATEMENT OF JOHN V. COGBILL, III, CHAIRMAN, NATIONAL CAPITAL 
                      PLANNING COMMISSION

    Mr. Cogbill. Good afternoon, Chairman Thomas and members of 
the subcommittee. My name is John Cogbill, and I am the 
Chairman of the National Capital Planning Commission, known to 
most of you as NCPC. Congress originally established NCPC in 
1924 as the park planning agency for the national capital. The 
agency has since evolved into the Federal Government's central 
planning agency in the National Capital Region. I am honored to 
have this opportunity to speak with you about the National Mall 
and NCPC's work throughout the years to establish a 21st 
century vision for our National Capital Region and the National 
Mall.
    We recognize that there are continuing demands for 
commemorative, interpretive, and other uses in this historic 
and symbolic landscape that we know as the National Mall. We 
support the efforts to complete a long-term master plan for the 
Mall, which we believe would compliment the visionary, long-
term planning for the expansion of Washington's monumental 
core, as outlined in NCPC's Legacy Plan released in 1997 and 
the Memorials and Museums Master Plan approved in 2001.
    NCPC's Legacy is the long-term vision for the national 
capital. Legacy lays out a 50 to 100-year vision for our 
Nation's capital and is the result of a multi-year effort in 
collaboration with all of the major Federal landholding 
agencies, the Congress, the public, and preeminent architects, 
planners, historians, and other experts.
    The Legacy Plan addresses the demand for ever-increasing 
development on the Mall by calling for an expansion of the area 
we know as Washington's monumental core. The monumental core 
currently consists of the Mall and the areas immediately beyond 
it, including Pennsylvania Avenue and the Federal Triangle, 
East and West Potomac Parks, the Southwest Federal Center, 
Arlington Cemetery, and even the Pentagon.
    Legacy would further expand the monumental core into other 
areas of Washington. It would provide new areas for memorials, 
museums, public recreation space, and other public buildings 
that would enhance Washington's larger urban fabric and assist 
in the city's ongoing economic development.
    The original L'Enfant Plan in 1791 set out Washington's 
original form based on the grand use of axial avenues and 
streets. In 1901, responding to a desire to extend the L'Enfant 
Plan's framework, Congress established the McMillan Commission. 
The McMillan Commission's plan for the Mall called for a 
reconfiguration and westward extension on newly filled land. 
Reinforcing L'Enfant's themes, the McMillan Commission further 
highlighted the relationship among the grand axial streets and 
major public buildings along the Mall.
    The Legacy Plan and the Commemorative Works Act recognized 
the Mall as a substantially completed work of civic art that 
must be preserved and maintained. The Mall's completeness 
refers to the fact that its historic landscape, its defined 
visual and geographic form, its historic views, and its fixed 
iconic points, such as the Washington Monument and the Lincoln 
and Jefferson Memorials, comprise a whole that should not be 
overwhelmed by new monuments or commemorative buildings.
    However, substantially complete does not mean unchanging. 
Therefore, Legacy proposes expanding the monumental core beyond 
the Mall and the traditional center of Washington to North, 
South and East Capitol Streets, the Southwest waterfront, and 
the Anacostia River. By expanding the monumental core in this 
way, the Capitol would truly become the center of the city with 
symbols of the Nation radiating out in all directions.
    As a visionary for the next 50 to 100 years, we are proud 
that our Legacy Plan is already being successfully implemented. 
One of the most significant Legacy achievements to date is the 
2001 Memorials and Museums Master Plan. Produced by NCPC, in 
partnership with the Commission of Fine Arts and the National 
Capital Memorial Advisory Commission, the plan identifies 100 
sites for future museums and memorials that are widely 
distributed to all quadrants of the city to enrich the 
economic, social, and cultural life of the Nation's capital.
    Another milestone was reached in 2003 when, through your 
efforts, Chairman Thomas and the work of this subcommittee, 
Congress made into law one of the central policies of the 
Memorials and Museums Master Plan. You created the Reserve, 
comprising the great cross-axis of the Mall from the Capitol to 
the Lincoln Memorial and from the White House to the Jefferson 
Memorial where no new commemorative works or visitors would be 
located. This defined the Mall, which Congress acknowledged, as 
a substantially completed work of civic art.
    NCPC's current work with the District of Columbia on a new 
vision for South Capitol Street has also been a major step 
forward for our Legacy Plan. Legacy established a vision for 
transforming South Capitol Street into a grand urban boulevard 
and waterfront gateway. On March 3 of this year, NCPC unveiled 
a detailed plan to implement that vision. The plan calls for 
development of an oval traffic rotary with a green park or 
common that will feature memorial or civic art where the new 
Frederick Douglass Memorial Bridge would intersect with South 
Capitol Street and Potomac Avenue. The green common and a new 
South Capitol waterfront park located between the rotary and 
the Anacostia River would create a major new commemorative area 
that will help relieve pressure on major memorials on the Mall.
    We recognize that the Mall will continue to be a living 
landscape and symbol of our democracy that must be preserved. A 
new Mall master plan is a necessary tool to help preserve its 
historic landscape and manage its physical development. NCPC 
supports and encourages the National Park Service's requests 
for funds for such a master plan. NCPC's role as the 
Government's central planning agency would make us a necessary 
and willing partner with the National Park Service and others 
to undertake this planning effort.
    We would also submit that there are others who are very 
helpful in this process, including the other government 
agencies and our friends in the community some of whom are with 
us today. We would also say that the Trust for the National 
Mall, which was established a few years ago, would be an 
instrumental part of this new constituency, this public-private 
partnership, similar to the Central Park Conservancy in New 
York City and the Golden Gate Park Conservancy in San 
Francisco. We believe with this constituency we can together 
form a team that will move forward the Legacy Plan.
    We hope to continue with that as we go forward, and we look 
forward to your advice and guidance as we do that. We again 
appreciate your invitation to be here today, and I would be 
happy to take your questions at the end of the testimony.
    [The prepared statement of Mr. Cogbill follows:]

Prepared Statement of John V. Cogbill, III, Chairman, National Capital 
                          Planning Commission

    Good afternoon, Chairman Thomas and Members of the Subcommittee. My 
name is John V. Cogbill, III. I am the Chairman of the National Capital 
Planning Commission. NCPC was originally established by Congress in 
1924 as the park planning agency for the national capital and has 
evolved into the federal government's central planning agency for the 
National Capital Region. I am delighted to have this opportunity to 
speak with you about the National Mall and NCPC's work throughout the 
years to establish a 21st-century vision for the National Capital 
Region and the National Mall. Like the other members of this panel, 
NCPC recognizes that there are continuing demands for commemorative, 
interpretive, and other uses of the historic and symbolic landscape 
that is the National Mall. We support the effort to complete a long-
term master plan for the Mall. A Mall master plan would complement the 
visionary long-term planning for the expansion of Washington's 
monumental core outlined in NCPC's Legacy Plan (released in 1997) and 
the Memorials and Museums Master Plan (approved in 2001).

I. NCPC'S LEGACY PLAN IS THE VISION PLAN AND THE 21ST-CENTURY EXTENSION 
                   OF THE L'ENFANT AND MCMILLAN PLANS

    NCPC's 1997 Legacy Plan is the long-term vision plan for the 
national capital. Legacy lays out a 50-100 year vision for the national 
capital and is the result of a multi-year effort launched in the early 
1990s by NCPC in collaboration with all of the major federal 
landholding agencies, members of Congress, the public, civic groups, 
and preeminent architects, landscape architects, urban planners, 
historians, and other experts.
    The Legacy Plan addresses the demand for ever-increasing memorial, 
museum, and other development on the Mall by calling for an expansion 
of the area we know as Washington's monumental core. The monumental 
core currently includes the Mall and the areas immediately beyond it, 
including the United States Capitol, the White House and President's 
Park, Pennsylvania Avenue and the Federal Triangle area, East and West 
Potomac Parks, the Southwest Federal Center, the Northwest Rectangle, 
Arlington Cemetery, and the Pentagon. The Legacy Plan would expand the 
monumental core beyond its current boundaries into other areas of 
Washington, such as South Capitol Street, parts of the Southwest 
Waterfront area (such as the 10th Street Overlook) and along the 
Anacostia River at East Capitol Street. It would provide new areas for 
memorials, museums, public recreation space, and other public building 
that would also enhance Washington's larger urban fabric and assist in 
the city's ongoing economic development.
    The original L'Enfant Plan of 1791 set out Washington's original 
physical form based on the separation of powers and the use of grand 
axial avenues and streets to express our federal system of government. 
L'Enfant saw the area between the United States Capitol and the 
Washington Monument as a grand four-hundred-foot-wide ceremonial avenue 
to be lined with imposing houses and gardens as part of a ``vast 
esplanade.'' In 1901, responding to the need to revive, refine, and 
extend the L'Enfant Plan's framework to manage growth in the national 
capital, Congress established the McMillan Commission to plan for 
improvements to the District of Columbia's park system. The McMillan 
Commission's plan for the Mall called for a reconfiguration and 
westward extension on newly filled land. Reinforcing L'Enfant's themes, 
the McMillan Commission further highlighted the relationship among the 
grand axial streets and avenues, and the groupings of major public 
buildings along the Mall, especially the Federal Triangle.
    The Legacy Plan recognizes the Mall as a substantially completed 
work of civic art that must be preserved and maintained. Substantially 
complete does not mean unchanging. The Mall's completeness refers to 
the fact that its historic landscape, its defined visual and geographic 
form, its historic views, and its fixed iconic points--such as the 
Washington Monument and Lincoln and Jefferson memorials--comprise a 
whole that should not be overwhelmed by new monumental or commemorative 
buildings. Therefore, Legacy proposes expanding the monumental core 
beyond the Mall and the traditional center of Washington to North and 
South Capitol Streets, the Anacostia River, and adjacent areas. By 
expanding the monumental core in this way, the Capitol would truly 
become the center of the city, with symbols of the nation radiating out 
in all directions.
    As a visionary plan for the next 50-100 years, the Legacy Plan 
serves as a basis for further planning in the years ahead. We are proud 
of the many facets of our Legacy Plan already being successfully 
implemented. One of the most significant Legacy proposals to come to 
fruition is the development of the agency's 2001 Memorials and Museums 
Master Plan. Produced in partnership with the Commission of Fine Arts 
and the National Capital Memorial Advisory Commission, the plan 
identifies 100 sites for future memorials and museums that are widely 
distributed to enrich the economic, social, and cultural life of the 
nation's capital. We were heartened in 2003 when Congress, through your 
efforts, Chairman Thomas, and the work of this Committee, had the 
thoughtfulness and foresight to give the force of law to one of the 
central policies of the Memorials and Museums Master Plan. That policy 
and your ensuing legislation created a Reserve comprising the great 
cross-axis of the Mall from the United States Capitol to the Lincoln 
Memorial and the White House to the Jefferson Memorial, where no new 
commemorative works or visitor centers would be located.
    NCPC's recent work with the District of Columbia on a new vision 
for South Capitol Street has also been a major step forward in making 
the Legacy Plan a reality. Legacy established a vision for transforming 
South Capitol Street into a grand urban boulevard and waterfront 
gateway. On March 3, 2005, NCPC's South Capitol Street Task Force 
unveiled a more detailed plan for that vision. The Task Force plan 
calls for the development of an oval traffic rotary, with a green park 
or common that will feature a memorial or civic art, where the new 
Frederick Douglass Memorial Bridge would intersect with South Capitol 
Street and Potomac Avenue. The green common and a new South Capitol 
Waterfront Park located between the rotary and the Anacostia River 
would create a major new commemorative area that will help relieve 
pressure for memorials on the Mall, by providing opportunities for a 
combination of parkland, retail, residential, and cultural 
establishments, and additional sites for memorials and other 
commemorative works.

 II. WHILE ADVANCING LEGACY'S VISION CAN RELIEVE MANY OF THE PRESSURES 
ON THE MALL, THERE IS STILL A NEED FOR A COMPREHENSIVE MALL MASTER PLAN

    Legacy and we at NCPC recognize that the Mall will continue to be a 
living landscape and symbol of our democracy that must be preserved. A 
new Mall master plan would be a valuable tool in preserving its 
historic landscapes, managing its physical development, and improving 
its maintenance and services for visitors and residents alike. NCPC 
supports and encourages the National Park Service's requests for funds 
for such a master plan. NCPC's unique mission as the federal 
government's central planning agency and our breadth of planning, 
design, and preservation expertise makes us a natural, necessary, and 
willing partner with the National Park Service and others to undertake 
a master planning effort.
    It should be made clear that the Legacy Plan is a vision plan that 
is not intended to address detailed or site-specific design and 
management concerns. To address these, a Mall master plan is needed to 
balance the Mall's physical and symbolic character with the demands of 
its many users. A master plan should define ``areas of influence'' for 
the Mall's major icons. It should include a land use plan and site-
specific development plans to guide future additions, improvements, and 
other physical modifications to the Mall. It should address vehicular 
and pedestrian circulation, visitor facilities and services, public 
recreational uses, public celebrations and gatherings, physical 
security, and planning for temporary events.
    A Mall master plan must also address calls for the ``expansion'' of 
the Mall's commemorative and museum uses into existing open spaces 
along the city's waterfront. While the Legacy Plan, Memorials and 
Museums Master Plan, and Commemorative Works Act encourage the 
expansion of the monumental core and the dispersion of memorials and 
museums into other areas of the city, this should not be done at the 
expense of the need to preserve and improve existing public open spaces 
that are already used for public recreation, cultural activities, 
gatherings, and celebrations. Most importantly, NCPC does not support 
any attempt to designate East Potomac Park as an area for major 
memorials and museums. While the Memorials and Museums Master Plan does 
include several sites in East Potomac Park as potential commemorative 
sites, its intention is to provide space for smaller commemorative 
works that enhance, not overwhelm, the predominantly waterfront open 
space and recreational character of East Potomac Park.
    A successful Mall master plan would indeed be an important tool to 
assist the National Park Service in its stewardship of the Mall. It 
would also assist NCPC in our review of security and other projects on 
the Mall by putting those projects into a larger, more integrated, 
framework. A successful, inclusive, and well received master plan would 
also serve as a basis for re-establishing the Mall's identity as a 
national public space and serve as a roadmap for a public-private 
constituency, such as the Trust for the National Mall, that may act as 
a fundraising and preservation advocacy body similar to such groups as 
the Central Park Conservancy in New York City and the Presidio Trust in 
San Francisco. Federal government resources will always be limited and 
meeting the Mall's myriad needs will always be a challenge. A National 
Mall constituency could play a vital role in helping preserve the Mall 
well beyond the 21st century.
    As the central planning agency for the federal community in the 
National Capital Region, we continue to be a willing and necessary 
partner in any effort to plan for the Mall. We would support and serve 
as enthusiastic participants in the development of a Mall master plan. 
We will also continue with our plans for South Capitol Street and 
elsewhere to expand Washington's monumental core to relieve pressure on 
the Mall and to enhance the nation's capital.
    We appreciate your invitation to be here today and I am happy to 
take any questions.

    Senator Thomas. Thank you, sir.
    Mr. Childs.

            STATEMENT OF DAVID M. CHILDS, CHAIRMAN, 
                    COMMISSION OF FINE ARTS

    Mr. Childs. Thank you, Mr. Chairman. In light of your 
statement that you will have to be going to a vote soon, would 
it be appropriate for me to summarize a couple of points and to 
insert, for your reading, our actual testimony we have written 
out?
    Senator Thomas. Your testimony will be in the record.
    Mr. Childs. Thank you very much. Good afternoon and thank 
you for asking us to be here.
    I am David Childs, Chairman of the Commission of Fine Arts 
in Washington, and I am also an architect and practiced here 
for a number of years. I began my career, in fact, working for 
Senator Moynihan on the plans for Pennsylvania Avenue and, in 
fact, the principal designer for my client, the Park Service, 
in 1972 of the last master plan of the Mall.
    I think it is most relevant that today's subject be--I tell 
you that, in fact, the Fine Arts Commission was created because 
of a Senator's activity, Senator McMillan, which has been 
referred to several times today, and in 1910 those members of 
the McMillan Commission Plan were actually invited to become 
the Commission of Fine Arts to oversee the implementation of 
that plan. So we were born in an activity you have started 
again 100 years later, a similar one, and are delighted to be 
here and, of course, are centrally interested in the result.
    We are very much in line with the testimony that you have 
heard here earlier by my colleagues, particularly of John 
Parsons and of John Cogbill, my colleague at the National 
Capital Planning Commission. We believe strongly that updated 
plans are good. Having done, as I say, this 1972 master plan 
for the bicentennial, this is 100 years since the Mall was 
looked at in a serious way and comprehensive way. And I would 
strong say that the Commission of Fine Arts would underscore 
that need for a great new plan to be commissioned.
    I would suggest that be done in perhaps a number of 
fashions, either under the Congress' leadership, as you have 
said here, but I would strongly endorse not the extension of 
new bodies. Here we have repetition of overlapping 
jurisdictions in Washington, and we all know how that can slow 
things down. In fact, the Park Service, my original client, on 
the 1972 plan is the largest agency for the largest area in 
this, and I believe their expertise should be used.
    But it would be of great interest, I think, to use some of 
the greatest minds across the country, as was done in the 
McMillan Commission Plan, to come together and to advise either 
the Park Service, the administration, or yourselves in coming 
forth with a brilliant new plan that would be appropriate and 
involve many others in whatever review capacity should be done.
    I also believe, as Mr. Cogbill has just told you, that the 
establishment of a nonprofit conservancy to help this 
stewardship--part of the real problem with the Mall is its 
maintenance. Authorization bills are relatively easy. It is the 
appropriations that is tough. I know that John Parsons--I have 
watched him. We have great plans already, but they are hard to 
implement and keep up.
    So I would endorse what happened in my current city in 
which I live, New York. What happened in New York for the New 
York park system--the conservancy for Central Park is 
unbelievable if you have been up there and seen the 
transformation that has taken place with the help of that 
group.
    One other point that I would add that is not in my 
testimony. This is a much larger Mall than people think. Yes, 
it has expanded and people's interpretation of the Mall is much 
larger than the technical end at 14th Street, but it goes 
beyond even that. It even goes beyond the Potomac River. I 
remember reading when I was young the statements by our 
Founding Fathers, George Washington and Thomas Jefferson, about 
the importance of the great axial view that goes over to the 
hills in a true French baroque pattern to the green hills of 
now, of course, the National Cemetery. But there are 
discussions by the local jurisdictions to raise height limits 
in Rosslyn. So the Mall's influence, looking forward out to 
other places, as well as looking in, should be of consideration 
of this plan, and I believe of national interest.
    So in summary, nothing is more important. The Capitol is at 
the center of the city. Its front door faces east, but people 
think of that area to the west as the imagery, the great icons, 
the greatest of all, the Washington Monument, as a symbol of 
our Nation and our culture. So nothing is more important, and 
we stand ready with my colleagues to my right to do whatever we 
can to help in this regard.
    Thank you for asking us here today.
    [The prepared statement of Mr. Childs follows:]

  Prepared Statement of David M. Childs, Chairman, Commission of Fine 
                                  Arts

    Good afternoon, Chairman Thomas and Members of the Subcommittee. My 
name is David Childs and I am the Chairman of the Commission of Fine 
Arts. The Commission thanks you for the invitation to testify today and 
appreciates the opportunity to join your discussion on the management 
and planning issues for the National Mall.
    The Commission of Fine Arts was created by an act of Congress in 
1910 as a result of the planning efforts of the Senate Park Commission 
which was initiated by Senator James McMillan of Michigan at the turn 
of the 20th century. The Commission of Fine Arts has played an integral 
role in the creation and development of the National Mall as we know it 
today. Our ongoing mission is to provide design review of all new 
projects in the monumental core of the city and, most importantly, for 
the National Mall. As the principal agency for reviewing designs for 
public and private development in the Nation's Capital, the Commission 
provides advice and comment to Federal agencies, private individuals 
and organizations, and the District of Columbia government. Included in 
the Commission's responsibilities is the approval of sites and designs 
for monuments and memorials under the Commemorative Works Act of 1986. 
The Commission has reviewed all design and construction on the Mall 
since 1910--most recently, the Museum of the American Indian and the 
security plans for the Lincoln and Jefferson Memorials, the Smithsonian 
Museums, and the Department of Agriculture. The Commission has been 
actively engaged in realizing the full potential of the Mall as the 
Nation's public ceremonial space as envisioned in the Senate Park 
Commission's McMillan Plan of 1902. The Commission works in cooperation 
with the National Capital Planning Commission (NCPC) in the planning 
process for future development of the Mall and is supportive of the 
NCPC Legacy Plan. We continue to cultivate a cooperative relationship 
with the major stewards of the Mall, including the National Park 
Service and the Smithsonian Institution.
    In our active role in reviewing new projects on the Mall, the 
Commission of Fine Arts is committed to developing stronger 
relationships with all public and private organizations having a vested 
interest in the Mall. More specifically, the Commission is working with 
Federal agencies to improve the design of security products to reduce 
their impact on the built environment and public space. To alleviate 
the pressure of additional construction on the Mall, we are also 
encouraging the continued development of museums and commemorative 
works in other areas of the city as recommended in the Memorials and 
Museums Master plan of 2001. In addition, we have encouraged ongoing 
discussions of a new master plan of the Mall to provide guidance for 
all stakeholders.
    The Commission of Fine Arts strongly supports the development of an 
updated master plan for the Mall. The most recent master plan for 
National Park Service property on the Mall was last revised in 1972. We 
believe master planning is crucial to manage and preserve the existing 
landscape and open public space, as well as to guide future 
development. The Mall is a unique resource of national importance and 
must be maintained at the highest level of quality for future 
generations. Therefore, an up-to-date comprehensive master plan should 
be developed through an open public process that includes all 
stakeholders, review agencies, and interested parties.
    The Commission of Fine Arts is one of the few agencies with 
jurisdiction over the entire Mall precinct and is dedicated to 
providing guidance on its buildings, monuments, and landscape. The 
Commission's unique mission enables the agency to guide discussions on 
the long-term vision for the Mall. The Commission of Fine Arts would 
not support the creation of an additional oversight body for the Mall 
as it would add redundancy given the Congressional mandates which 
already exist for the Commission of Fine Arts, the National Capital 
Planning Commission, the Advisory Council on Historic Preservation, and 
the State Historic Preservation Office of the District of Columbia. 
Additional bureaucracy and potentially conflicting authorities could 
complicate communication between agencies, stakeholders, and other 
interested parties.
    The Commission of Fine Arts supports the establishment of an 
independent, non-profit conservancy to enhance the stewardship of the 
Mall. It could be modeled after similar organizations established for 
New York City's Central Park or San Francisco's Golden Gate National 
Park. Through advocacy, fundraising, and the development of public-
private partnerships, the conservancy could promote the preservation, 
management, and sustainability of the landscape without becoming an 
additional oversight design review body. We recognize that a similar 
organization, the Trust for the National Mall, has recently reached an 
agreement with the National Park Service to assist them with 
maintenance expenses.
    The Commission of Fine Arts, since its creation as the primary 
agency for reviewing design in the Nation's Capital, has been committed 
to encouraging the highest quality of design for the development of the 
Mall as the Nation's premier civic space. We look forward to continuing 
our work with Congress, other agencies, and the public to achieve the 
strongest vision possible for the National Mall.
    This concludes our written testimony. I would be happy to respond 
to any questions you might have.

    Senator Thomas. Well, thank you very much.
    Senator Salazar, did you have a statement you would like to 
make or comments?

          STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Senator Salazar. Chairman Thomas, if I may, just a quick 
comment.
    The National Mall is, in fact, one of those very special 
places for all of us to visit. My father, who passed away 2 
years ago and was one of my own personal heroes and who was 
part of the world's greatest generation as a veteran from World 
War II, would have been very proud to have had the opportunity 
to have come here today and to have visited the World War II 
Memorial. So I commend you on the work that you do for one of 
our great symbols of our freedom and democracy in this country.
    I have a question for whoever wants to answer, but maybe 
Mr. Cogbill does. Mr. Cooper raised the possibility of 
developing a national conservancy to try to bring together all 
the stakeholders under one management entity to make sure that 
we are doing all those things that we ought to be doing to 
maintain the Mall and to make sure that we have a delineation 
of boundaries and the like. I think what he is talking about is 
very similar to what has happened in New York.
    It frankly astounds me that with the long history that we 
have had in Washington and with this Mall that we have not done 
that yet, that we do not have an entity that essentially has 
that jurisdictional responsibility. In my own natural resources 
work of the past, I have often seen what happens when you end 
up having multiple jurisdictions, all of which have a piece of 
the pie. It does not seem that you really have the kind of 
coordination that you need. It seems to me that given the 
symbolism of the Mall and given the fact you have so many 
different competing interests, if you will, maybe not competing 
interests, but different jurisdictions involved, that that is 
an idea that would make absolute, eminent sense.
    So I guess my question to you is why has it not happened if 
it seems to be such a sensible thing?
    Mr. Cogbill. Thank you, sir, for the question.
    First, as I mentioned at the beginning, the National 
Capital Planning Commission is the central planning agency for 
the Federal Government in the national capital. Part of our 
duties are to preserve the important historical and natural 
features of the national capital. So that role was really 
fulfilled or begun for this century with the Legacy Plan.
    The Legacy Plan really understood at that point and 
contemplated the need to do something about the Mall. It really 
was a result of the establishment of the American Indian 
Museum. At that point, the National Capital Planning Commission 
realized that the Mall had really reached capacity and that we 
needed to go beyond that. So the Legacy Plan gave birth to that 
idea of expanding the monumental core, finding these additional 
places where memorials and museums could be located and 
identifying the 100 sites throughout the entire District of 
Columbia.
    The second part of that would be that the National Park 
Service for the last 3 years has been working to try to prepare 
a Mall master plan, and we have been very supportive of their 
efforts to do that. We believe that will provide the public 
forum that will allow all----
    Senator Salazar. Let me ask you this question, though, Mr. 
Cogbill, if I may. I take it then that you are in disagreement 
with Mr. Cooper's suggestion that what we do is to create a 
Mall conservancy organization that essentially has jurisdiction 
to define what the boundaries are for the Mall, as well as to 
engage in the planning.
    Mr. Cogbill. Yes, sir.
    Senator Salazar. So you would be opposed to Mr. Cooper's 
suggestion.
    Mr. Cogbill. Yes, sir, and the reason for that is the 
Congress has already defined the Mall. That is something that 
we did in the Commemorative Works Act amendment in 2003. But 
more importantly, I think what happens is with this coming 
together of the master plan for the Mall, the implementation of 
the Legacy Plan, that we really have the opportunity to bring 
all these forces together to really, just as Mr. Childs said, 
hear the input from the public, receive the comments, and to 
the exact same thing without establishing another layer.
    The difference I think between the McMillan Plan in 1910 
and today is we have a completely different environment. We had 
a Federal city in 1910. Today we have a city that is made up of 
the Federal community, but as a partner in that is the District 
of Columbia, the people who live in the District of Columbia. 
So I think as part of this, what we would see is a more limited 
role and----
    Senator Salazar. Let me just ask a question of Mr. Cooper 
because my time is almost up. From your point of view, you 
disagree with Mr. Cogbill. You believe that the National 
Capital Planning Commission is insufficient to carry out the 
kind of vision that you talked about with respect to the Mall. 
Tell us what the shortcomings are of the National Capital 
Planning Commission and how we ought to move forward.
    Mr. Cooper. First of all, I think that my three colleagues 
here, each one heads a different organization, and each one has 
a role. They all are really taxed to the limit with the role 
that they are providing. I think NCPC is doing a fine job with 
the limited mandate that it really has. I know John continues 
to struggle for funds to do a lot of the things that he would 
otherwise like to do. And the Commission of Fine Arts at this 
point in time really struggles, I believe, because they are 
being asked to review projects and that have no real master 
planning foundation. In other words, they are getting piecemeal 
projects brought to them that do not have a master plan 
generically behind them.
    So I think that what I am saying is that there are seven 
major stakeholders that have a part, that have a physical 
presence on the Mall. Right now there is no real means, no 
structured way, in which they coordinate together. I know there 
is ad hoc coordination going on, sometimes on particular 
projects, but there is not any long-term forum for planning for 
all of them to get together and plan and reflect on their 
needs. There is no overall plan for security of the Mall. There 
really is not a transportation plan. Each one of these things 
could really be rectified if there were some kind of a 
coordinating body that was put in place that really was dealing 
with both the Park Service areas, which really are the 
monuments and memorials, and the Smithsonian and increasingly 
the Capitol. The Capitol now is a major tourist attraction and 
really needs to be taken into account as part of the National 
Mall.
    Senator Salazar. Thank you, Mr. Chairman.
    Senator Thomas. Thank you.
    Mr. Parsons, how would you define the Mall?
    Mr. Parsons. It is pretty simple. The Mall extends from the 
Capitol to the Lincoln Memorial, from the White House to the 
Jefferson Memorial. It is 725 acres. 90 percent of that is 
under our jurisdiction.
    Senator Thomas. So as it is expanded in South Capitol and 
so on, that probably would not be the Mall. It would be called 
something else?
    Mr. Parsons. Yes. This is not anticipated to be a Federal 
enclave. That is, South Capitol Street, as you probably already 
know, will have the new baseball stadium on it. It will have 
private development along it. It is more like Pennsylvania 
Avenue, Connecticut Avenue, Massachusetts Avenue, but it would 
have its own identity, with a major park at the terminus at the 
Anacostia River. So it is a much different context to add to 
the Mall, if you will, as has been proposed.
    Senator Thomas. Obviously, we need to have some additional 
space, but it would be not necessarily on the Mall.
    Mr. Parsons. Correct. The master plan that Mr. Cogbill 
referred to has 100 sites. As you know, we are working with 
nine memorial proposals right now in the city, and we are 
finding sites for all of them outside of the Mall.
    Senator Thomas. I guess most of us sort of believe that the 
Park Service is pretty much the immediate manager of the Mall. 
Is that true?
    Mr. Parsons. Well, 90 percent of it, yes. We share that 
with the Smithsonian Institution who has eight museums, the 
National Gallery of Art who has two, the headquarters of the 
Department of Agriculture, and the local Department of 
Transportation, of course, has the streets that cross at grade.
    Senator Thomas. So if we were looking for some commission, 
they would be more to look at the future and make 
recommendations, not be a management tool. Is that what you are 
saying?
    Mr. Parsons. Well, what we hope to do with our plan and 
will do is to engage all of these entities, as well as all of 
my colleagues here, including Mr. Cooper, in a major planning 
process over the next 3 years to address this 725-acre Mall.
    Senator Thomas. But I guess I am sort of trying to define a 
little between the management of what we have and the planning 
for what we are doing, and that would be a little different I 
think as it goes.
    Mr. Cooper. May I inject something? Would it be 
appropriate?
    Senator Thomas. Sure.
    Mr. Cooper. I think one of the problems--there is obviously 
a difference between planning and management policy. However, 
people that walk down the Mall do not really understand when 
they move from a Park Service piece of land onto the 
Smithsonian piece of land or onto the National Gallery piece of 
land. I think that at this point in time, there are policies 
that have an effect on the usefulness of the Mall to people 
that really stem from this fact that if there were much more 
coordination, if there was integration, we would begin to see a 
lot of things happen that really cannot happen now because the 
Smithsonian is hamstrung on one side, the Park Service is 
hamstrung on another because they do not cross over. And I 
could go on.
    Senator Thomas. But you have to have kind of an entity that 
manages. You cannot have five or six different groups managing.
    Mr. Cooper. I think each of the five or six groups is doing 
a good job, and we are not suggesting that any of them should 
not do the job they are doing. We are suggesting that they 
could do it a lot better if there was an organization that 
embodied them, that was really helping them to coordinate and 
pull things together. It would be more economic too.
    Senator Thomas. Well, I guess that is kind of what I was 
saying. As you plan, as you change, as you talk about the 
future, you need to have more groups involved. When you are 
actually managing it from day to day, then someone has to have 
that accountability and responsibility.
    Mr. Cooper. Yes.
    Senator Thomas. In your plan here, Mr. Cooper, Third 
Century Mall, how many acres does that all encompass?
    Mr. Cooper. You know, I am sorry I do not know. It is 
roughly doubling of the size the Mall.
    Senator Thomas. And it extends across the Potomac onto the 
Virginia side.
    Mr. Cooper. Depending upon how much of that land you take 
into account, yes.
    I am the architect of two major memorials on the Mall, and 
so I understand the fact that the developers of memorials 
really want to be on the Mall. One of the problems that John 
faces in the Memorial Commission all the time is the fact that 
everybody wants to be on the Mall, and there is no space. If 
you begin to see these memorials beginning to spread out in the 
city, that is not going to do the same thing. That is a real 
estate solution to the problem, not a cultural solution. There 
is a certain intensification of usage that has really got to go 
on in order for a memorial to be successful.
    Senator Thomas. There is concern about it being too intense 
I think, as a matter of fact.
    Yes, Mr. Cogbill.
    Mr. Cogbill. Mr. Chairman, I had a couple of points. Just 
as to the overall jurisdiction and planning for this, again I 
want to emphasize the role of the National Capital Planning 
Commission. In the area of security, this commission recently 
passed the Urban Design and Security Plan for all of the 
National Capital Region. It is actually being implemented 
outside of the National Capital Region. But in that, it 
specifically mandates what happens in the precinct that 
includes the Mall. So the security is being monitored on an 
overall basis by the National Capital Planning Commission.
    As far as transportation, the Legacy Plan also contemplated 
transportation, and in fact we are now implementing the 
Circulator Plan which provides better tourist access, provides 
better resources for the business community, and provides the 
ability to move better around the city in conjunction with the 
District of Columbia's Department of Transportation.
    With the intensification, I think that is a very important 
point because there are a large number of open spaces and 
recreational areas in this particular part of Washington in 
what we call the Mall. What I would not want to see, if we were 
to expand this definition of the Mall, is to lose these open 
spaces, to lose these passive recreation areas, and lose the 
ability for the people who live and work here to enjoy that 
without having to walk over another memorial or monument.
    Senator Thomas. Mr. Childs, what is your idea about a 
future planning group and a management group?
    Mr. Childs. Well, Senator, thank you. I feel very strongly 
that what we do not need is another overlaying agency. You will 
still have all of the different groups, including the 
community, that would be part of it, but I believe, as you were 
I think indicating, that the management role, the group that is 
most responsible for this large area has been the National 
Capital Planning Commission.
    In the past, what they have done--I have been witness to 
that myself--is to include experts from around the world. They 
would not implement this plan themselves. They would have the 
very finest minds in art, architecture, landscape architecture 
be selected perhaps on a national competition or other means of 
selection to come and actually create that plan.
    But I believe it would be a mistake as my colleagues, 
except for Mr. Cooper obviously. I feel that it should be done 
with the input of the existing plans and the management that is 
already in place.
    But one does want to get the finest minds from across this 
Nation to come in and lend their authority by their reputation 
to add to the quality and the brilliance of the resultant 
design. So rather than just being a consensus idea that would 
come forward, it would be something like the McMillan 
Commission Plan of Daniel Burnham and Olmstead and McMillan and 
the great artists of the century as well to come together and 
do a plan which was really creative, thought about the city as 
a whole, rather than just the northwest or the southwest 
sections of the city, to create something with much larger 
impetus. That would be my recommendation. So I think that the 
three existing entities, the Park Service, the National Capital 
Planning Commission, and mine, the Commission of Fine Arts, 
would be in unison, obviously, on that thought.
    Senator Thomas. I know this one will get me in trouble, but 
is there not a section here, the Mall and so on, which is 
basically national? It is Federal. It is not Washington, DC.
    Mr. Childs. Exactly.
    Senator Thomas. That basic thing ought to be preserved as a 
Federal, national kind of thing.
    Mr. Childs. Well, you know, it is interesting. I was 
actually sitting in Mr. Cogbill's seat when Gerald Ford, at the 
time of the Home Rule Act, created a new National Capital 
Planning Commission, of which I was chairman because it was 
separated from the new local planning agency under the Home 
Rule Act. And it was that very definition of what was the 
Federal interest. And the one thing that everyone would agree 
on is that the National Mall, as generally understood and 
described by Mr. Parsons, was a Federal entity. So I would 
completely subscribe to that.
    We at the Commission of Fine Arts look at many, many 
matters, including the coins that are issued in this country. 
We see as the central interest here of Federal interest is the 
National Mall. So I heartily underscore your thoughts that you 
have just said.
    Senator Thomas. Mr. Parsons.
    Mr. Parsons. Mr. Chairman, if there is something that you 
might want to consider, it would be establishing a national 
historical park, which you are quite familiar with all over the 
country. What is missing I think is that people perceive the 
Washington Monument, the Lincoln Memorial, the Vietnam Veterans 
Memorial, World War II, Jefferson, the White House as pieces of 
something, but they are not sure what it is. And it is the 
National Mall. It is a term that is gaining national 
recognition but is really inside the Beltway, to use an old 
term. And possibly we might want to consider establishing a 
national historical park that encompasses all these.
    Senator Thomas. Encompasses all of it.
    Mr. Parsons. All of it and identifies it as an entity.
    Senator Thomas. One of the things we have run into--kind of 
a tough one--is T-shirt stands and concession trailers and 
things on the Mall. I understood that the Park Service was 
directed to find some alternative ways of doing that.
    Mr. Parsons. Yes, Mr. Chairman. First, I want to apologize 
for the tardiness in preparing the report that was in that 2003 
Act. We very recently gave you an interim report on this, and I 
will just summarize it briefly, if that is okay.
    You had asked about the concessions stands, food service 
facilities at the Lincoln Memorial, which are currently 
trailers, metal buildings, temporary, very unappealing. We have 
under construction now replacements for that, and there will be 
one on the north side of the Lincoln Memorial, one on the 
south. We are quite pleased with the design. It is similar to 
the ones that are placed already on the Mall in front of the 
museums.
    Second, you had asked us about the stables, which were 
built in 1976, that lay between the Korean War Memorial and the 
DC War Memorial. We have looked at alternative sites. Given the 
parameters of the need for proximity to the White House with 
the horses, we have tentatively concluded that the best thing 
we can do is to remain where we are but not to have these 
temporary stables, in other words, to create something first 
class. But we have not coordinated this with our colleagues in 
the planning and fine arts commissions and that is why we 
cannot give you a full report.
    Regarding the four demonstrations, if you will, that exist 
near the Vietnam Veterans Memorial, these demonstrators have 
been there for 20 years, 24 hours a day. They are in compliance 
with the regulations that we have established for 
demonstrations of this kind. Without changing our regulations, 
which would impact many other activities that go on on the 
Mall, it will be very difficult to abolish them.
    Due to construction that is going on at the Lincoln 
Memorial now, we intend to temporarily relocate them and will 
reassess that when our construction is completed at the end of 
2006. So we are committed to bringing back a full report to 
you.
    Senator Thomas. As we mentioned, part of this is to 
demonstrate our willingness for freedom of speech and so on. So 
that is a very important element of deciding.
    As far as your stable is concerned, I think it is a good 
place for it. We had the privilege last Sunday of riding 
through the cherry blossoms, my wife and I and with the police. 
It was great. Your horses are a little bigger than ours are in 
Wyoming.
    [Laughter.]
    Senator Thomas. But it was great and we liked it.
    I sense that we all agree that there probably needs to be a 
group with an assignment to make a plan for the future. Is that 
right?
    Mr. Parsons. Yes.
    Mr. Cooper. Yes.
    Mr. Cogbill. Yes.
    Mr. Childs. Yes.
    Senator Thomas. And would you very briefly, each of you, 
describe the composition of this group in your judgment?
    Mr. Childs. Well, if I could also add one thing. I thought 
there was perhaps a bit of confusion earlier. The New York 
Conservancy for Central Park is a different kind of 
organizational group. It came in as a fund raising and design 
entity but does not take over any authority from the New York 
Parks Department. So the group that was referred to in other 
testimony here today that the Park Service has signed up with 
or another group could be that kind of a funding agency for 
maintenance and other provisions. It is not the kind of thing 
you are looking for, which is that larger body to come together 
to oversee the Mall plan itself.
    Just to begin the answering of your central question, which 
I think is central to the discussions today, at the Commission 
of Fine Arts, we would be fearful about a new agency to come in 
to try to embrace all of the existing ones.
    But we would support highly--and I only suggested the Park 
Service because they are the largest operator of the Mall, as 
we think of it today--of engaging minds, as I say, from around 
the country who are the finest thinkers in these acts of 
planning, design, art, and architecture, all of these matters 
that come together to create a plan, so that one could embrace 
a group of people, an advisory group, or a commission or other 
means of management, but to ensure that the finest minds come 
together to think about this matter and to report to you their 
findings, just as the McMillan Commission Plan did.
    But I think that the central management of that would be 
logical to put within an agency that already has the manpower 
and all those things necessary to do it with the proper 
coordination not only of citizen groups like the coalition, but 
also of the existing regulatory bodies, such as the National 
Capital Planning Commission and the Commission of Fine Arts.
    Senator Thomas. Very well.
    Very quickly, how do you envision it, Mr. Cogbill?
    Mr. Cogbill. Mr. Chairman, I would adopt the comments of 
Mr. Childs, but I would also add that the National Capital 
Planning Commission has three Presidential appointees, two 
mayoral appointees, representatives of every major landholding 
entity within the Federal Government, as well as others from 
the District. In addition, as you have heard him say, we bring 
in experts from around the country, and we would look forward 
to partnering with the Park Service or whatever agency, 
including the Commission of Fine Arts and with Mr. Cooper and 
his organization, to develop the best possible plan.
    Senator Thomas. You have not officially started do that, 
though.
    Mr. Cogbill. No, sir. We would work with the Park Service 
and certainly----
    Senator Thomas. I understand.
    Mr. Cooper.
    Mr. Cooper. The one thing that I am hearing that alarms me 
is that out of all the discussion here, the focus on the Mall 
as a people's place is taking on an entirely different 
character in the 20th century as the 20th century has moved 
along and is getting lost in the shuffle. I think that is the 
thing that we are most attuned to.
    The organizational aspect of this of turf is not that 
critical to us. What is critical to us is trying to find a way 
to really get a set of policies and plans together that will, 
in effect, make it possible for the citizenry of the United 
States to be able to use the Mall more creatively. This a very 
important place. The more that usage gets restricted, whether 
it is by security or by lack of parking or by lack of 
amenities, the less we get the kind of infusion of the 
democratic spirit in the people who come to Washington in 
throngs than we could have. Right now, that is getting lost in 
the shuffle of kind of turf, and it should not be. Our plea is 
that whatever we do, we work out something that makes it 
possible to break the logjam of real estate versus use, public 
use.
    Senator Thomas. This is not an amusement park, is it?
    Mr. Cooper. Not at all, no. But that does not mean there 
cannot be recreation or education, but there is an enormous 
amount of healing that goes on and the transmission of the 
democratic spirit. If you knock the Mall out, if you would 
limit it, then your constituents would really begin to feel 
that they lost something very important.
    Senator Thomas. I am sure.
    Mr. Cooper. They depend on this being here. They depend on 
it being open.
    Senator Thomas. You do get sort of an historic, almost 
quiet feeling when you go buy the World War II monument, 
however. You are not out there cheering and throwing balloons 
up in the air as you watch that necessarily.
    Mr. Cooper. No.
    Senator Thomas. Mr. Parsons.
    Mr. Parsons. Mr. Chairman, I agree with most of what has 
been said, and I would only add this to it. As you know, the 
Park Service is a proud steward of many, many parks throughout 
this country. You also know that we undertake planning for all 
of those parks. We see this as the same kind of undertaking, 
that is the delicate balance between recreation, celebration, 
demonstration, and that is what this has got to be about. How 
can we keep this as a sustainable landscape that we are all 
proud of at all times and allow all of these things to occur in 
balance with one another? We feel we are the best agency to do 
that. The difference between this and Grand Canyon or 
Yellowstone is we have the other two Federal agencies to assist 
us in the decisionmaking, that is, the Commission of Fine Arts 
and the Planning Commission.
    Senator Thomas. Gentlemen, I thank you. We have started our 
vote over there, so I suppose voting interferes with our lives 
a lot around here. I do appreciate it.
    I also think as we go along, obviously there are important 
things that people bring up they would like to celebrate. They 
want memorials for them. Unless we have a future plan where 
they can go somewhere else, we are going to have constant 
battles about what we are doing with the original Mall.
    So I appreciate very much your being here and look forward 
to working with you and see if we can move forward. So thank 
you very much. I appreciate it.
    The subcommittee is adjourned.
    [Whereupon, at 3:33 p.m., the hearing was adjourned.]


                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

                    National Mall Third Century Initiative,
                                    Washington, DC, April 28, 2005.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.

Re: Oversight Hearing on the National Mall

    Dear Senator Thomas: We appreciate this opportunity to answer your 
questions about the National Mall and its management in greater depth 
than was possible during the hearing.
            Prepared by,
                                      W. Kent Cooper, FAIA,
                                                       Coordinator.
[Enclosure.]

    Question 1. How many acres are added by the Third Century Mall 
proposal?
    Answer.

1.1 Major areas
    East Potomac Park--368 acres +/-
    West Potomac Park--64 acres +/-
    Kennedy Center extension--16 acres +/-
    Banneker overlook--9 acres +/-

    Note: Acreage listed is calculated from NCPC maps

1.2 Corridors
    South Capitol St. 7200 If--landscaped Boulevard. DC Redevelopment 
program
    M Street SW 3400 If--existing DC street from S. Capitol St. to the 
Washington Channel.
    L'Enfant promenade 1800 If--existing DC street extending from 
Independence Ave, SW to the Banneker overlook.
    Washington Channel Bridge 1000 If--New construction. Could have 
memorial quality.

    Question 2. How many new memorials and museums do you think that 
the existing Mall can accommodate and how many additional memorials 
would the Third Century Mall accommodate?
    Answer.

2.1 The Existing Mall
    17 projects.
    The Moratorium legislated in the amendment to the Commemorative 
Works Act prohibits the construction of new memorials and visitors 
centers in the ``Reserve'' area with the exception of the MLK Memorial, 
the Black Patriots Memorial, and the Vietnam Veterans Visitors Center.
    On the other hand, The NCPC Memorials and Museums Master Plan of 20
    In addition this report identifies additional sites in Area One:

        West Potomac Park--1
        North of Constitution--4
        South of Independence--2

2.2 Third Century Mall--sites outside Area One
    31 memorial sites including sites for two major museums.
    The NCPC Memorials and Museums Master Plan identifies the following 
memorial and museum sites in areas which are included in the Third 
Century Mall proposal:

        East Potomac Park--7
        South Capitol Street--5
        Banneker Overlook--3
        Kennedy Center area--10
        Virginia side of the River--6

2.3 Third Century Mall-New sites not identified in the Memorials and 
        Museums Master Plan
    20 memorial sites including two major museum sites.
    In addition, a mega-event open space is included.

        West Potomac Park--3
        East Potomac Park--12
        M Street corridor--1
        Virginia side of River--4

2.4 Summary
    The existing Mall (Reserve and Area 1) has documented sites 
suitable for up to 17 additional memorial projects. The search for a 
suitable site for the African-American Museum has shown that none of 
these sites are really ideal for a major museum.
    The Third Century Mall, as proposed, is suitable for at least 51 
new memorial projects including 4 major museums. In addition, a mega-
events open space is planned.
    It should be pointed out that the sites listed in the NCPC 
Memorials and Museums Master Plan Report were developed on the basis of 
being open real estate. In contrast, the memorial and museum sites 
listed In the Third Century Mall are located in thematic zones in which 
a suitable cultural context for a variety of memorial topics can be 
properly developed. The intent is to develop a strong symbolic setting. 
The Third Century Mall will be different than the Beaux Arts setting of 
the existing Mall, but will develop a similar symbolic power, rooted in 
the spirit of our democracy.
    Question 3. How would you define the Mall?
    Answer. The Mall is both a ``place'' and an ``idea''. The ``place'' 
has grown over the years, as our nation has grown. The Congressional 
Budget office says that today there isn't an agreed definition of what 
constitutes ``The Mall''.
    The ``idea'', while still strongly rooted in the founding 
principles of our democracy, has also grown--evolved--as the public has 
learned its value as the nation's premier place for celebration, 
recreation, demonstration and healing. Decades ago, Charles Moore, 
secretary of the McMillan Commission, observed that one can read the 
nations history in the monuments of the Mall. Today, that history is 
written not only in stone but in the public events which still echo in 
our nation's collective heart and mind: The spirit of what it means to 
be an American.
    Thus, we would define the Mall as the public open space which is 
anchored and framed by that dense network of monuments, memorials, 
museums, agencies and institutions which are co-located in and around 
the original L'Enfant geometric armature and which collectively reflect 
the founding principles of our nation's Constitution, each contributing 
to our understanding of democracy and nationhood. As our nation grows 
and evolves, so will this network.
    Question 4. Which organizations have jurisdiction over the Mall and 
what is the role of each?

Stakeholders--physical presence on the Mall
    National Park Service--manages and maintains the major monuments 
and memorials on the Mall, the majority of the open spaces between 
Constitution and Independence Avenues from 3rd St. west, and both East 
and West Potomac Parks. While others, such as the American Battle 
Monuments Commission, and VVMF design and construct, NPS assumes 
ultimate responsibility for operation.
    Manages most concessions in the public open spaces: food, gifts, 
and transportation on the Mall.
    National Gallery of Art--manages, designs and maintains the NGA 
West and East Buildings, and their immediate surroundings, as well as 
the NGA Sculpture Garden.
    Smithsonian Institution--manages, designs and maintains the nine 
Smithsonian Museums which are located on the Mall., and their immediate 
surroundings. Each of these museums enjoys a good deal of operational 
autonomy. The Smithsonian Center for Folklife and Cultural Heritage 
plans and operates the annual Folklife Festival in the NPS managed open 
space.
    Architect of the Capitol--manages, designs, and maintains the 
Capitol Building and its grounds, the Supreme Court, the Library of 
Congress, and the Botanical Gardens, both enclosed and open air.
    General Services Administration--manages, designs and maintains the 
Department of Agriculture Headquarters Building and its surroundings. 
If the Mall is defined as in the McMillan Plan, and includes the 
Federal Triangle, including the Archives, White House etc., as well as 
areas south of Independence Avenue, then GSA's stake in the Mall is 
greatly enlarged.
    District of Columbia--manages, designs and maintains the through 
streets and tunnels which traverse the Mall and provides utility 
service

Review agencies
    National Capital Planning Commission--reviews and approves all 
projects to be constructed on the Mall. Prepares planning and design 
studies such as the Legacy Plan; maintains an archive of base drawings 
of the Mall
    Commission of Fine Arts--advises on the design of all projects 
brought before it to be constructed on the Mall; maintains an archive 
of past projects and plans.
    National Capital Memorial Commission--develops procedures for 
selecting memorial and museum sites, as well as design review and 
approval.
    Congressional Oversight Committees--both the House and the Senate 
maintain a number of committees and subcommittees which focus on 
appropriations and operations. We do not have a comprehensive map of 
this oversight.
    Question 5. Is there a compelling need for a comprehensive planning 
effort to provide vision for the National Mall as it enters its third 
century?
    Answer. Two factors seem to mandate a major new planning effort.
    First, the McMillan Mall is filled. Congress recognized this 
condition and declared a Moratorium on further memorial, museum and 
visitor center construction. This is a fragile condition. Three 
exceptions have already been made, and NPS has found a way around the 
moratorium by saying that privately funded projects are exempt. The 
logical answer to this condition is to create new appropriate sites for 
memorials by expanding the Mall as was done in 1901 by the McMillan 
Commission. Space is available to do this, but a comprehensive, 
visionary, plan for shaping this space is also needed as was the case 
in 1901.
    During the recent Senate hearing, there was considerable focus 
placed on the fact that the NCPC Legacy ``Framework'' Plan of 1997 
provides that necessary vision. We believe that many elements of this 
plan are very useful and should be incorporated into any new plan, but 
that the Legacy Plan stops short of providing an adequate vision for 
the 21st Century. It is an incomplete concept. (See below)
    Likewise, during the recent Senate hearing, the NCPC Memorials and 
Museums Master Plan was cited as providing an adequate number of new 
memorial and museum sites to fill the needs of the new century. This 
plan was based on identifying available real estate throughout the 
city. It did not take into account the fact that meaningful memorials 
and museums are highly dependent on being located in relevant cultural 
contexts. A Local example of this problem was the sprinkling of Civil 
War Generals on horses throughout the city late in the nineteenth 
century. These certainly are artful orienting devices, but fail as true 
memorials. We need a visionary plan which attempts to provide flexible, 
relevant, context for many future memorial and museum projects.
    Second, the role of the Mall in our society has gradually shifted 
throughout the last century. While the Mall's unique role remains 
rooted in interpreting the founding principles of our Democracy, today 
the Mall has become the premier national open space for celebration, 
recreation, demonstration, and healing--truly a people's place. This 
change in the character of Public Use now requires us to look at the 
existing Mall--as well as expansion areas--in a different light. The 
present-day Mall does not adequately support public use.
    Basic visitor amenities are few and far between: toilets, food, 
shelter, lighting, benches, transportation, access and parking, things 
to do other than visit memorials and museums. Until this year no one 
has thought to prepare an orienting brochure about the Mall itself.
    The Mall needs modern orientation systems and at least one well 
equipped Visitors Center. Largely due to its fractured management these 
needs are not being met. The Mall is truly an orphan.
    The Mall needs a parent who is dedicated to making it into a world-
class visitor experience. Creating a visionary plan is the first step. 
Creating an entity which is dedicated to keeping the Mall functioning 
is the second.
    We need both.
    The Moratorium has given us a short hiatus during which we can stop 
building and carefully consider a vision for the National Mall which is 
large enough to express our continuing commitment to the founding 
ideals of our Democracy and to guide us in shaping our evolving 
cultural identity. We must not let this rare opportunity be lost in 
bureaucratic indecision. Indeed, there is a compelling need for 
greatness.
                                 ______
                                 
                              U.S. Commission of Fine Arts,
                                    Washington, DC, April 29, 2005.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Thomas: I appreciate your giving me the opportunity to 
respond formally to some of the questions raised at the Senate hearing 
on April 12, 2005. As the Chairman of the Commission of Fine Arts, I 
applaud your efforts and concerns regarding the future of the National 
Mall.
    Thank you again for giving the Commission of Fine Arts the 
opportunity to join in your discussion on the management and planning 
issues for the National Mall. I look forward to cooperating closely 
with your staff to make the most of what is an auspicious moment in the 
planning of the National Capital.
            Sincerely,
                                           David M. Childs,
                                                          Chairman.
[Enclosure.]

    Question 1. How would you define the Mall?
    Answer. The National Mall has evolved from its earliest depiction 
on the L'Enfant Plan as a wide mile-long public space extending 
westward from the Capitol. Currently, there is a technical definition 
used by the primary agency responsible for managing the land, the 
National Park Service, which states that the National Mall lies between 
3rd and 14th Streets to the east and west and between Constitution and 
Independence Avenues to the north and south. Practically speaking, the 
public perception of what is known as ``the Mall'' would likely include 
a rectangular area from the base of the Capitol grounds on the east to 
the Lincoln Memorial on the west and defined along its length by 
Constitution and Independence Avenues. However, it is important that we 
understand that there is a Federal interest in protecting the context 
of the Mall and the monumental core to include, for example, the green 
hills of the Arlington ridge which provides a visual backdrop to the 
entire composition of this national public space.
    Question 2. Do you see expansion as an option for providing 
additional space for future monuments, memorials, and museums on the 
Mall? If so, in which direction should the expansion occur and what is 
currently located in that space?
    Answer. In the late 19th and early 20th centuries, the monumental 
core of Washington was physically expanded through the reclamation of 
land out of what had been tidal mud flats along the Potomac, resulting 
in what we know today as an extension of the original Mall as well as 
East and West Potomac Parks. Today, there is no possibility of 
literally creating new land to enlarge the Mall although it is 
conceivable to widen the definition of ``the Mall'' to include other 
parts of the City's monumental core and parkland. The fact remains that 
such a definition change cannot create new sites for monuments, 
memorials, or museums that do not already exist in locations currently 
considered not on the Mall. Again, what is publicly perceived as the 
Mall will likely continue to be a discrete rectangular greensward 
running from the Capitol to the Lincoln Memorial regardless of what 
nomenclature is applied to the adjacent park areas.
    However, there are other areas that can potentially be improved to 
provide prime locations for monuments, memorials, and museums within 
close proximity to the monumental core. As identified in the Legacy 
Plan and the 2001 Memorials and Museums Master Plan, areas radiating 
out from the center of the city at the U. S. Capitol--such as South 
Capitol Street--could be developed as an enlargement of the 
commemorative space we now think of as occurring on the National Mall.
    Question 3. Which organizations have jurisdiction over the Mall and 
what is the role of each?
    Answer. There are two kinds of organizations that have jurisdiction 
over the Mall: those who manage or occupy the land and those who have 
design, preservation, or planning oversight for the land. The first 
group includes the National Park Service of the U.S. Department of the 
Interior; the Smithsonian Institution; the National Gallery of Art; the 
U.S. Department of Agriculture; the Architect of the Capitol; and the 
General Services Administration. The second group consists of our 
design review agency, the U. S. Commission of Fine Arts (CFA); the 
Federal planning agency, the National Capital Planning Commission 
(NCPC); the Advisory Council on Historic Preservation; and the District 
of Columbia State Historic Preservation Office. In addition, the 
District of Columbia Department of Transportation has authority over 
the north-south streets whereas the east-west avenues fall under the 
jurisdiction of the Federal Highways Administration and the National 
Park Service. Of the land management group, the National Park Service 
is by far the largest controller of National Mall property and, because 
of the extent of its oversight, has a considerable role in the overall 
planning of the Mall.
    Question 4. Is there a compelling need for compressive planning 
effort to provide vision for the National Mall as it enters its third 
century?
    Answer. The Commission of Fine Arts, which was created to oversee 
the implementation of the McMillan Commission Plan, strongly supports 
updating plans for the Mall. The most recent master plan for the Mall 
was last revised in 1972 and since that time, the built landscape of 
the Mall and its environs has evolved considerably. In addition, there 
continues to be strong pressure to locate sites for memorials, 
monuments, and museums on the Mall that must be evaluated in a 
comprehensive way instead of being considered as piecemeal additions to 
the existing plan. Following on the achievements of L'Enfant and the 
McMillan Commission, we have a timely opportunity to bring a fresh 
vision to the National Mall as it enters its third century.
    Question 5. Do you think a commission similar to the McMillan 
Commission should be established to plan for the third century of the 
National Mall? If so, who should be members of the commission and how 
much time should they be given to produce a report?
    Answer. There are various ways to provide oversight for a new plan 
for the National Mall but every alternative should involve bringing the 
very best minds in the country to participate in what must be the 
creation of a brilliant new plan. A hundred years ago, the McMillan 
Commission was comprised of four design professionals of the highest 
national reputation who produced a visionary plan for Washington's 
monumental core. The process took about two years. While the Commission 
of Fine Arts is concerned about the creation of an new oversight 
agency, an ad hoc commission charged with the specific goal of 
preparing a bold plan for the National Mall could be similarly 
constituted with a group of independent professionals with 
representation from the existing design and planning oversight 
agencies, the Commission of Fine Arts and the National Capital Planning 
Commission. To ensure participation from the stakeholders and the 
public, this new commission would need to work with an advisory 
committee representing the various Federal land managers, national and 
local governments, and the general public. The National Park Service, 
as the largest of these stewards of National Mall property, would 
naturally have a central role in advising and administering the 
planning process.
                                 ______
                                 
                      National Capital Planning Commission,
                                      Washington, DC, May 11, 2005.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Thomas: It is my pleasure to enclose our responses to 
the list of questions you provided as follow-up to the April 12, 2005 
hearing before the Subcommittee on National Parks of the Senate 
Committee on Energy and Natural Resources regarding the National Mall.
    The National Capital Planning Commission looks forward to working 
with you and the Subcommittee on National Parks and to partnering with 
the National Park Service, the Commission of Fine Arts, the general 
public, and with design and planning professionals from around the 
country in planning for the future use of this treasured open space.
    If we can provide any other information, please call me or our 
Executive Director, Patricia Gallagher, at 202-482-7228.
            Sincerely,
                                      John V. Cogbill, III,
                                                          Chairman.
[Enclosures.]

    Question 1. How would you define the Mall?
    Answer. The National Capital Planning Commission defines the 
National Mall as the area from the United States Capitol to the Lincoln 
Memorial and from the White House to the Jefferson Memorial (see 
attached NCPC rendering).
    Question 2. Which organizations have jurisdiction over the Mall and 
what is the role of each?
    Answer. The National Park Service has primary jurisdiction over the 
National Mall and provides overall management for much of this great 
open space. Planning guidance and approval for new and existing 
projects on the Mall is provided by NCPC--the central federal planning 
agency for the National Capital Region--and CFA, the federal design 
review agency. Other agencies with jurisdiction of facilities around 
the Mall include the Architect of the Capitol, the Smithsonian 
Institution, the National Gallery of Art, the Department of 
Agriculture, the District of Columbia Department of Transportation 
(north-south streets), and the Federal Highways Administration (east-
west streets).
    Question 3. Is there a compelling need for a comprehensive planning 
effort to provide vision for the National Mall as it enters its third 
century?
    Answer. Yes. The last significant master plan for the Mall was 
completed in 1972. In the more than 30 years that have since passed, 
the Mall has changed greatly due to the addition of many new major 
memorials and museums. As more groups and individuals continue to seek 
a claim to the Mall, it is critical that federal planners balance the 
many competing demands for recreation, tourism, commemoration, public 
events, and open space.
    A new Mall Master Plan would provide a basis for preserving what is 
important about this great open space--its public uses, historic scope, 
iconic image, and its beauty. The master plan should include areas 
adjacent to the Mall and it should identify additional areas that could 
be linked to the Mall along prominent, monumental streets. NCPC's 
Memorials and Museums Master Plan, adopted in 2001, identifies many 
opportunities for expanding the important symbolic spaces and 
activities of the Mall. These include linkages along 10th Street to the 
Banneker Overlook at the Potomac River waterfront, South Capitol Street 
to the Anacostia waterfront, and East Capitol Street to Anacostia Park 
and the waterfront.
    A new Mall Master Plan should also address the increasing use of 
security measures at our national icons. A portion of the plan should 
contain elements similar to the ones identified in NCPC's National 
Capital Urban Design and Security Plan that was adopted in 2002, to 
integrate security requirements into the Mall's historic fabric.
    The Mall Master Plan should be a collaborative effort. This 
important initiative would include the principal planning, review and 
management authorities in the nation's capital--NCPC, CFA and NPS.
    These agencies should seek the counsel of the nation's leading 
designers, historians, and artists and should include input from key 
stakeholders and public groups, such as the National Coalition to Save 
the Mall.
    Question 4. At the close of the last century the National Capital 
Planning Commission produced, ``Extending the Legacy,'' as a framework 
of planning and urban design for all of Washington, DC. The National 
Mall is the core of the Nation's Capital. Is there further action 
needed by the Subcommittee on National Parks to encourage the framework 
to become a reality?
    Answer. Yes. Subcommittee members could encourage their colleagues 
to support funding for the planning and development of new sites to 
accommodate future national memorials and museums, as proposed in 
NCPC's Extending the Legacy. These new spaces must be desirable 
locations in their own right and could include areas along the axes of 
the U.S. Capitol, such as the terminus of South Capitol Street at the 
Anacostia River waterfront and the Banneker Overlook on 10th Street SW. 
Further, the Subcommittee can help protect the limited remaining space 
on the Mall by directing memorial sponsors to consider one of the 100 
potential sites that have already been identified by NCPC in the 
Memorials and Museums Master Plan.
    Question 5. What was the genesis of the Legacy Plan referred to in 
your testimony? Who suggested that it be conducted? How was it funded? 
How long did it take to complete? What will it take to have it 
implemented in its entirety?
    Answer. Extending the Legacy is the third chapter in Washington's 
planning history following the L'Enfant and McMillan Plans before it. 
Legacy looks ahead 50-100 years and offers a framework for future 
development. The plan recenters Washington on the U.S. Capitol and 
extends development to the four quadrants of the city. Preserving and 
enhancing the open space of the National Mall is the cornerstone of the 
plan.
    The Legacy initiative began in 1991 in response to the 
proliferation of new museums and memorials on the Mall in the 1980s. 
The plan was funded by federal budget appropriations to NCPC, which 
worked with a team of prominent architects, urban designers, 
economists, transportation planners, and the general public. NCPC 
published the plan in 1997. Legacy expanded the definition of ``federal 
interest'' to include adjacent neighborhoods, waterfronts, parks, and 
gateways.
    We are pleased that a number of Legacy proposals have received 
funding in recent years and are now being implemented. Legacy's 
proposal for a new transit system--the Downtown Circulator--will be 
realized this summer when the first routes begin service; plans have 
been advanced to create an exciting public plaza in front of the 
Kennedy Center and remove the tangle of freeway ramps that separate it 
from the surrounding neighborhood; funding has been recently awarded to 
study the possibility of relocating rail tracks in the Monumental Core; 
and initial funding has been awarded to begin implementing Legacy's 
vision to transform South Street into a grand urban boulevard.
    NCPC looks forward to the continued support of the Subcommittee as 
it works to further the important initiatives unveiled in Legacy. Much 
remains to be done.
                                 ______
                                 
                        Department of the Interior,
           Office of Legislative and Congressional Affairs,
                                      Washington, DC, May 25, 2005.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Mr. Chairman: Enclosed are the responses to the follow-up 
questions from the Oversight Hearing on the National Mall held by the 
Subcommittee on National Parks on April 12, 2005. The National Park 
Service has prepared these responses.
    Thank you for the opportunity to respond. If you have any 
questions, please contact the Office of Legislative and Congressional 
Affairs.
            Sincerely,
                                             Jane M. Lyder,
                                               Legislative Counsel.
[Enclosures.]

                     Questions From Senator Thomas

    Question 1. How would you define the Mall?
    Answer. Generally, the National Mall encompasses the area east/west 
from the Capitol Grounds to the Lincoln Memorial and north/south from 
the White House to the Jefferson Memorial. As a result of the 
Commemorative Works Clarification and Revision Act of 2004, this 
description is now referenced in the Commemorative Works Act provision 
which defines the Reserve, in 40 U.S.C.A. Section 8902(a)(3). 
Previously, in defining the Mall, the NPS also has referenced the 
National Capital Planning Commission's (NCPC) definition that the Mall 
is the area bounded on the north by Constitution Avenue, NW, on the 
south by Independence Avenue, NW, by the Capitol on the east, and 14th 
Street on the west, prior to reaching the Washington Monument.
    Question 2. Which organizations have jurisdiction over the Mall and 
what is the role of each?
    Answer. The National Park Service (NPS) manages 90% of the 725-acre 
National Mall. The remaining 10% is managed by the Smithsonian 
Institution, the Department of Agriculture, and the National Gallery of 
Art with whom we consult regularly. The District of Columbia has 
jurisdiction over 3rd, 4th, 7th, and 14th Streets, and the NPS has 
jurisdiction over 15th, 17th, and 23rd Streets as well as Constitution 
and Independence Avenues from the Lincoln Memorial to 14th Street.
    The agencies with review and/or approval authority over projects 
proposed for placement on the National Mall other than the National 
Park Service and, in the context of commemorative works, the National 
Capital Memorial Advisory Commission, are the Commission of Fine Arts, 
the NCPC, the District of Columbia State Historic Preservation Officer, 
and the Advisory Council on Historic Preservation.
    Question 3. Is there a compelling need for a comprehensive planning 
effort to provide vision for the National Mall as it enters its third 
century?
    Answer. In 1990, the NCPC initiated a new public planning process 
for the city's urban core. This framework plan was completed in 1997 to 
guide long-term growth and is called ``Extending the Legacy,'' as it is 
based on the legacy of the two landmark plans, the L'Enfant Plan and 
the McMillan Plan. The Legacy Plan protects the integrity of the 
National Mall as we know it today. By establishing the Capitol as the 
axis for new growth which will occur along North; South, and East 
Capitol Streets, commemorative works and museums can now be directed to 
new ceremonial sites located outside the National Mall. The Legacy Plan 
was built upon and succeeds the McMillan Plan with a vision for the 
21st Century. On November 17, 2003, Congress declared the National Mall 
complete by establishing the Reserve through an amendment to the 
Commemorative Works Act. With the creation of the Reserve under Public 
Law 108-126, we believe the National Mall is a completed work of civic 
art and that there is no need to expand or extend the National Mall 
into other areas of the city or into East Potomac Park.
    South Capitol Street is undergoing a transition that has the 
promise of transforming it into a major boulevard in Washington, DC. In 
our judgment, South Capitol Street should not be added to the National 
Mall, but should be developed to have its own unique identity. It 
should not be a Federal enclave, but instead, should include a mix of 
uses, including sites for commemorative works and museums like 
Pennsylvania Avenue has between the Capitol and the White House. 
Without managing the streetscape, NPS could manage any future national 
memorials located on South Capitol Street. If a new commemorative work 
is located on privately-owned property, NPS management could be 
accomplished by the United States acquiring the property as parkland to 
be administered by the NPS, before or after the commemorative work is 
completed, or, if the new memorial is located on government property, 
jurisdiction could similarly be transferred to the NPS. Examples of the 
latter include the Law Enforcement Officers Memorial, the Francis Scott 
Key Memorial, and the African American Civil War Memorial.
    We also do not believe that the National Mall should be expanded to 
include East Potomac Park. This concept, proposed by the National 
Coalition to Save Our Mall, was thoroughly debated during the 
formulation of the Legacy Plan. The consensus was that this area should 
remain primarily as a recreational park, although the Memorials and 
Museums Master Plan, which was developed pursuant to the Legacy Plan, 
proposed the southern tip of the park as a site for a major memorial, 
and sites for smaller memorials along its perimeter. Additionally, 
recent amendments to the Commemorative Works Act specifically preclude 
museums from being located within East Potomac Park.
    While we do not believe there is a need to expand or extend the 
National Mall, the NPS does recognize the need for a single 
comprehensive plan to provide guidance for NPS management of the 
National Mall and, in particular, to address concerns related to the 
extremely high levels of use and resulting impacts to the landscape. 
The NPS has begun a public planning process that would result in the 
National Mall Comprehensive Management Plan. We are committed to 
ensuring that the planning process is open and inclusive and engages 
NCPC, Commission of Fine Arts, our partners, interested stakeholders, 
and the American public in this important effort to preserve existing 
landmark plans by planning for future use.
    Question 4. The National Park Service has closed or severely 
restricted parking near the Washington Monument and Jefferson Memorial. 
Why was this done, is it temporary, and what alternatives do you have 
for the public to park and tour the memorials? Can you at least provide 
parking for handicapped individuals?
    Answer. Within walking distance (500 yards) of the Washington 
Monument, there currently exists approximately 2,000 parking spaces 
along Constitution Avenue, Madison and Jefferson Drives, and in the 
parking lot at the Tidal Basin. The parking lot on the north side of 
the Washington Monument grounds, which was never designated as just for 
monument visitors, contained 108 spaces. It was constructed in the 
vista between the White House and the Washington Monument and Jefferson 
Memorial to serve World War II temporary buildings. Those buildings 
were demolished in the 1960s. Removal of the parking lot increases the 
amount of open space used for a variety of recreational and festival 
activities and allows the completion of the long-planned German-
American Friendship Garden. The removal of this parking lot was 
approved through a public planning process by the Commission of Fine 
Arts, the NCPC, the District of Columbia State Historic Preservation 
Office, and the Advisory Council on Historic Preservation as part of 
the 1993 Development Concept Plan.
    The Jefferson Memorial has limited handicap parking located 
adjacent to the site, limited public parking spaces located 350 yards 
away, and two public parking lots less than 600 yards (\1/3\ mile) from 
the Memorial. There also is a bus pick-up and drop-off area adjacent to 
the Memorial. The parking lot next to the Jefferson Memorial itself had 
to be closed because it is located within the required vehicular 
security perimeter as defined by site-specific security analyses.
    Congresswoman Eleanor Holmes Norton encouraged NPS to provide 
alternatives for visitors to use to access the Memorial. One 
alternative the NPS developed is presently in place. It is a 60-day 
trial expansion of Tourmobile's service so as to provide visitors the 
option to board the Tourmobile, for a modest fee, at the new Jefferson 
Memorial Parking lots and disembark at the Tourmobile stop at the 
Memorial. Tourmobile is the NPS concessioner providing visitor 
transportation. These shuttles are available daily between 9 a.m. and 5 
p.m., every 15 minutes. If the visitor chooses to continue on the 
normal Tourmobile route, the fee for the shuttle is credited towards 
the price of the Tourmobile tour. NPS and Tourmobile will evaluate this 
expansion of service at the end of the trial period to determine 
whether it should continue. The existing tour bus pickup and drop-off 
areas that are currently used by more than one-third of the visitors to 
this site will continue. Other possible additions may include a 
handicapped and limited parking outside the vehicular barrier perimeter 
and a passenger drop-off area.
    Question 5. Section 206 of Public Law 108-126 directed the 
Secretary of the Interior to produce a report to relocate, as soon as 
practicable, the National Park Service's stable and maintenance 
facility located within the Reserve Area. What is the status of the 
effort and where will the stables and maintenance facility be located?
    Answer. Through a March 14, 2005 letter to the subcommittee, the 
NPS provided an interim report, and the NPS expects to provide a final 
report to the subcommittee in July 2005.
    First, concerning the stable, which is a U.S. Park Police facility, 
the NPS has developed criteria for siting such a facility. A key 
criterion is that this facility be located close to the Mall and its 
memorials and to the White House complex so as to allow for immediate 
response by USPP horse-mounted officers. Through its review, the NPS 
has concluded that the existing site, which is adjacent to Independence 
Avenue, best satisfies the criteria.
    With regard to the maintenance facility, we believe this is 
referring to the concession facility as there is no maintenance 
facility on the Lincoln Memorial grounds within the Reserve. The 
current concession facility will be demolished this year and replaced 
with a structure similar to the facility in front of the Smithsonian 
museums.
    Congress also directed the NPS to make other changes, if 
appropriate, to protect the character of the Reserve. Pursuant to this 
directive, the NPS is embarking on a Comprehensive Management Plan for 
the National Mall. We are currently developing the process we will use 
to develop this Plan. In creating this Plan, the NPS expects to work 
closely with the District of Columbia State Historic Preservation 
Officer, the Commission of Fine Arts, the NCPC, and the public. The 
Plan may result in proposals for further legislation to protect the 
character of the Reserve.
    We anticipate sending a final report to the Committee on these 
matters by July 2005.
    Question 6. The same law also directed the Secretary to find an 
alternative to the T-shirt stands and concessions trailer that operate 
near the Lincoln Memorial. What plans do you have for removing the 
unsightly structures and when do you expect to have it done?
    Answer. The current Lincoln Memorial concession program is being 
operated from a temporary structure. This is slated for demolition this 
year and will be replaced with a facility based on the design used on 
the National Mall in front of the Smithsonian museums. An identical 
facility will also be constructed on the island of land enclosed by 
Bacon Drive, Constitution Avenue, 23rd Street, and Lincoln Circle. 
These facilities have received approval from the District of Columbia 
State Historic Preservation Officer, the Commission of Fine Arts and 
the NCPC. Work has already begun on the north kiosk and should be 
completed by this winter. Work on the south kiosk will start upon 
completion of the north kiosk and take 8 months to complete.
    Regarding the First Amendment vigil sites on the Lincoln Memorial 
grounds, the Department of the Interior's Solicitor's Office has 
reviewed and litigated the issue intensively for many years. The 
outcome of this litigation (1) allows structures for message symbolism 
and as shelter for displays, (2) requires NPS to uniformly and even-
handedly enforce regulations, and (3) limits sales items and dimensions 
of sales sites.
    If regulations were modified or issued to expand the current 
restricted area at the Lincoln Memorial or the Vietnam Veterans 
Memorial, the changes would preclude not only any vigil site activities 
but also hundreds of other traditional events and demonstrations that 
regularly occur there such as fairs, festivals, high school band 
concerts, religious services, and other demonstrations. Indeed, an 
extended restricted zone would have precluded the 1963 March on 
Washington, the 2000 Millennium Celebration, or the long-standing 
Easter Sunrise services. In weighing the creation of any restricted 
area, the NPS must carefully consider the need to preserve ``an 
atmosphere of calm, tranquility, and reverence'' within the memorials 
but also whether it is ``an unreasonable limitation on First Amendment 
activity.''
    During the time that construction on the Lincoln Memorial Circle 
Security and Road Rehabilitation project moves into the area containing 
the current demonstration vigil sites, no permits will be issued for 
the area, and any demonstrators wishing to continue their activities 
will be relocated to other permit areas. Once construction has been 
completed, we will have a better idea whether applicants will request 
to use the earlier sites. If such applications are received, however, 
consistent with NPS regulations, we will then determine anew whether 
such activity is appropriate in the newly constructed and rehabilitated 
area.
    Question 7. The George Mason Memorial, which is located in East 
Potomac Park near the Jefferson Memorial, was dedicated on April 9, 
2002. The National Park Service has not added the memorial to any signs 
in the area to inform visitors of its existence and location. When do 
you plan to add the memorial to signs?
    Answer. The NPS has designed wayside signs for the George Mason 
Memorial to be installed this fall. The location of the George Mason 
Memorial also is included in visitor directional signs throughout the 
National Mall. We are evaluating additional directional signage in the 
vicinity of this memorial. In addition, the NPS website contains a 
webpage solely devoted to the George Mason Memorial. This webpage 
contains information to aid visitors in planning their visit to this 
site.
    Question 8. I've noticed on my drive into work early in the morning 
that some of the memorials occasionally have no lights or only some of 
the lights working. This seems to be the case for weeks at a time. What 
is your procedure for monitoring the lights and making repairs, and how 
long does it generally take to perform routine maintenance like 
changing light bulbs?
    Answer. NPS inspects the lighting on all memorials on a regular 
rotation. All of the crews and rangers also are directed to report 
lighting problems between inspections, and we urge the public to notify 
us of any problems so that we can address them as quickly as possible. 
We should note, however, that the current condition of the lighting 
systems at our major icon memorials is less than satisfactory. We are 
in the process of replacing the systems at Lincoln Memorial and the 
Washington Monument and are fine tuning the new system at the Jefferson 
Memorial. The current construction at the Lincoln Memorial includes 
replacement of the 1950's era lighting system for the interior and 
exterior of the Memorial. We anticipate the re-lighting work will be 
completed this summer. Additionally, the construction underway on the 
Lincoln Circle roads includes repair and replacement of the street 
lighting system around the Memorial, which corrects problems with PEPCO 
electrical service lines. In the interim, the NPS has provided 
supplemental temporary lighting to ensure visitor safety.
    The Security and Grounds Improvement Project currently under 
construction at the Washington Monument includes redesign and 
replacement of the 1950's era exterior lighting system. This work 
required demolition and removal of four hydraulic lift vaults, which 
provided illumination of the Monument between 100 and 500 feet. The new 
design allows the Monument to be illuminated from pedestal-mounted 
fixtures instead of in-ground vaults, which improves energy efficiency 
and sustainability. These design improvements were made possible by a 
partnership between the NPS, the National Park Foundation and Musco 
Lighting, Inc. Work will be completed early this summer.
    The 2001 re-design and re-lighting of the Jefferson Memorial 
through a partnership with Osram-Sylvania provided similar energy 
efficient illumination of this Memorial. Osram-Sylvania has recently 
been testing new lamps and filters as further enhancements. The NPS 
will review the results later this month.

                    Questions From Senator Bingaman

    Question 1a. I would like to ask several questions concerning the 
2003 amendments to the Commemorative Works Act. In addition to 
establishing the Reserve, section 206 of that Act directed the National 
Park Service, in consultation with NCPC and the Commission of Fine 
Arts, to report to Congress within six months with plans to limit the 
sale or distribution of merchandise to less intrusive areas, instead of 
allowing merchandise kiosks near the Lincoln and Vietnam Memorials. The 
amendment also directed the Park Service to report on plans to relocate 
or redesign concession facilities within the Reserve to make them 
compatible with the Reserve's character, as well as plans for the horse 
stables. I have reviewed the March 14, 2005 letter that the National 
Park Service sent to the Committee's Republican staff regarding these 
issues.
    When will the Department transmit a report to the Committee as 
required by law?
    Answer. We anticipate transmitting a report to the Committee by 
July 2005.
    Question 1b. Section 206 required the report to completed within 6 
months after the date of enactment, or May 2004. Why has it taken so 
long for the report to be completed?
    Answer. The NPS apologizes for the delay in completing the report. 
We believed it was important to resolve compliance and design approval 
issues regarding security improvements and visitor service facilities 
on the western end of the National Mall prior to engaging the public 
and reviewing commissions on additional issues.
    Question 1c. The section directs the Secretary of the Interior to 
prepare the report in consultation with the National Capitol Planning 
Commission and the Commission of Fine Arts. Have both commissions been 
consulted on either the interim report or final report?
    Answer. Consultation with the NCPC and the Commission of Fine Arts 
is in progress.
    Question 2a. As I understand the Department of the Interior's 
position based on the interim report letter, the Department does not 
intend to relocate the existing sites where merchandise is sold under a 
First Amendment permit, except during a temporary construction project.
    Your letter states that the outcome of previous litigation limits 
sale items and dimensions of sale sites. As I understand the case 
history on this issue, the Court of Appeals for the District of 
Columbia Circuit upheld National Park Service regulations which banned 
the sale of T-shirts on the Mall and other National Park Service 
administered sites in and around Washington. Has the issue of the 
specific merchandise sales at issue in the section 206 report been 
litigated and is the National Park Service under any court order to 
allow the sale of these items at their current location?
    Answer. The Court of Appeals did uphold the constitutionality of 
the NPS sales regulation, which limited what may be sold, limited the 
dimensions of a sales site, and provided that sales may occur as part 
of a demonstration or special event except for certain restricted 
areas. The issue of limiting merchandise sales and relocating sale 
structures at issue in the section 206 report were never part of the 
NPS sales regulation and thus has not been litigated. The NPS 
demonstration and sales regulations, however, currently allow such 
sales and sale structures, and these regulations have been upheld with 
the specific admonition that they are to be ``enforced uniformly and 
without discrimination.''
    Question 2b. How do you distinguish the sale of merchandise from 
the vigil sites, as your letter refers to them, and the T-shirt 
vendors, which also claimed a First Amendment connection?
    Answer. The majority of the demonstrators at the vigil sites were 
plaintiffs in their unsuccessful lawsuits that challenged the NPS sales 
regulation, at which time the court declared that the demonstrators' 
purpose was to ``educate the general public about their respective 
beliefs and activities.'' While it is clear during the litigation that 
opportunistic T-shirt vendors asserted a First Amendment connection to 
sell on parkland, once the NPS sales regulation was upheld and 
enforcement began, these T-shirt vendors left, while the vigil site 
demonstrators continued their expressive and sales activities under 
permit.
    Question 2c. At what point, if any, does the sale of merchandise 
under a First Amendment permit become the predominant use instead of 
the underlying claimed use?
    Answer. Under NPS regulations, the sales must be part of a 
permitted demonstration or special event. There is no gradation point 
whether the sale is the predominant rather than the underlying claimed 
use, and the courts have held that sales themselves may constitute 
constitutionally protected expressive conduct.
    Question 3a. The interim report letter states that other uses of 
the affected area, such as high school band concerts, could be 
prohibited from using the site if the existing uses are banned.
    Does the National Park Service authorize band concerts under First 
Amendment permits?
    Answer. The NPS authorizes band concerts under a special event 
permit, while religious services and demonstration occur under a 
demonstration permit. NPS regulations generally define special events 
as sporting events, pageants, celebrations, historical reenactments, 
regattas, exhibitions, fairs, festivals and similar events. 
Demonstrations are defined as picketing, speechmaking, marching, vigils 
and religious services and like forms of conduct which involve the 
communication or expression of views or grievances which has the intent 
or effect of drawing a crowd of onlookers.
    If regulations were modified or issued to expand the current 
restricted area at the Lincoln Memorial or the Vietnam Veterans 
Memorial, the changes would preclude not only any vigil site activities 
but would also preclude hundreds of other traditional events and 
demonstrations that regularly occur there such as fairs, festivals, 
high school band concerts, religious services, and other 
demonstrations. Indeed, an extended restricted zone would have 
precluded the 1963 March on Washington, the 2000 Millennium 
Celebration, or the long-standing Easter Sunrise services. In weighing 
the creation of any restricted area, the NPS must carefully consider 
the need to preserve ``an atmosphere of calm, tranquility, and 
reverence'' within the memorials but also whether it is ``an 
unreasonable limitation on First Amendment activity.'' The NPS's 
balancing effort was unsuccessful, however, when the Vietnam Veterans 
Memorial restricted zone was struck down as unconstitutional as applied 
to literature distribution on the sidewalks at Henry Bacon Drive and 
Constitution Avenue because it ``burden[ed] substantially more speech 
then is necessary to further the government's legislative interests.''
    Question 3b. Does any other permitted event result in what is 
essentially a permanent, 24 hours a day, 7 days a week presence on the 
exact same location on the Mall?
    Answer. There have been other permitted events that occur at one 
location 24 hours a day and 7 days a week within the Reserve. For 
example, in Lafayette Park there have been long-term demonstration 
vigils such as during Operation Desert Storm, as well as one 24/7 
demonstration vigil that has been continuous for the past twenty years. 
On the National Mall during the summer months, the International 
Society For Krishna Consciousness regularly obtains permits for 24/7 
activities at one location, although they generally operate during 
daylight hours. The NPS's past regulatory attempt to limit the duration 
of demonstrations was struck down as unconstitutional, but our 
regulations detailing when a permit is required, how an application is 
processed, when an application may be denied or granted, and that 
structures may be erected for the purpose of symbolizing a message or 
meeting logistical needs have been upheld as constitutional.
    Question 4. The authorization for construction of the Vietnam 
Veterans Memorial Visitor Center requires that the center be 
constructed and landscaped ``in a manner harmonious with the site of 
the Vietnam Veterans Memorial, consistent with the special nature and 
sanctity of the Mall.''
    In your opinion, are the current vigil sites harmonious with the 
nearby memorials and consistent with the special nature and sanctity of 
the Mall?
    Answer. Any governmental regulation of demonstration activity is 
subject to First Amendment jurisprudence and the NPS regulation of 
demonstration/sales activities on Federal parkland has been the subject 
of extensive First Amendment litigation. In that regard, while 
recognizing the importance of the National Mall and its nearby 
monuments and memorials, courts have stated that ``the Mall is more 
than home to these enduring symbols of our nationhood'' in that ``its 
location in the heart of our nation's capital makes it a prime location 
for demonstrations. It is here where Martin Luther King, Jr. delivered 
his famous `I Have a Dream' speech, where both sides of the abortion 
debate have staged their passionate demonstrations, and where on any 
given day one may witness people gathering to voice their public 
concerns. As we have said before, `It is here that the constitutional 
rights of speech and peaceful assembly find their fullest expression.' 
In the context of such longstanding First Amendment jurisprudence, and 
consistent with NPS regulations and policies that allow demonstration/
sales activities under certain conditions, the current vigil sites must 
be considered to be, at least legally, harmonious with the nearby 
memorials, and consistent with the special nature and sanctity of the 
Mall.
    Question 5. Public Law 108-126 did not direct the National Park 
Service to ban these sites, it simply directed the Park Service report 
on plans ``to limit the sale or distribution of permitted merchandise 
to those areas where such activities are less intrusive on the 
Reserve'' and to relocate any existing structures that would be 
inconsistent with that plan.
    Does the National Park Service maintain that there are no other 
areas on the National Mall where the sale of permitted merchandise 
would be less intrusive on the Reserve?
    Answer. Insofar as the government is subject to First Amendment 
jurisprudence identified in our response to Question 4, and under NPS 
regulations, visual intrusiveness is not a condition considered when 
processing proposed First Amendment permit applications. However, as we 
detailed in our response to Question 2, during construction on the 
Lincoln Memorial Circle Security and Road Rehabilitation project the 
vigil sites will be moved to other permit areas; and once construction 
is completed, if applicants request to use the earlier sites, the NPS 
under its regulations will determine anew whether such activity is 
appropriate in the newly constructed and rehabilitated area.
    Question 6. Can you please provide the Committee with a schedule of 
when the current construction projects will be completed for the 
Washington Monument, Lincoln Memorial, and Jefferson Memorial, and when 
will the adjacent grounds be reopened to public access?
    Answer. The interim security facility and one walkway were 
installed to allow the Washington Monument to reopen April 1. The 
Washington Monument grounds are scheduled to reopen in June. Work to 
restore the Washington Monument Lodge building interior, for ticket 
distribution and public restrooms, will begin this summer and is 
expected to be completed in winter 2005. With regard to the Jefferson 
Memorial, we hope to have full design approval by winter 2005, with 
construction starting in Spring 2006. Construction duration is 
estimated at 12-14 months. Work on approved portions of the project at 
the Lincoln Memorial began in February 2004. Meetings with the 
Commission of Fine Arts, the National Capital Planning Commission and 
the District of Columbia State Historic Preservation Officer to resolve 
differences concerning the east side security design are continuing. 
Project completion is now expected in the summer 2006.
    Question 7. Your testimony discusses the agreement the Park Service 
entered into in 2003 with the Trust for the National Mall to assist in 
fundraising for enhancements to the Mall. How much money has been 
raised to date by the Trust and what are the priorities for the use of 
those funds?
    Answer. The Trust for the National Mall is currently working on 
organizational development, and has not yet launched a public 
fundraising campaign to benefit the National Mall, as our fundraising 
agreement with them requires approval of a formal fundraising plan, 
prior to any fundraising activities. The NPS will consult with the 
various congressional oversight committees on the submitted proposed 
fundraising plan. Once this process has been completed and the plan is 
approved by the NPS, the Trust plans to launch public fund raising 
efforts and thereafter undertake at least two major projects in its 
first 2-5 years: the restoration of the Reflecting Pool adjacent to the 
Lincoln Memorial and the renovation of the pool in Constitution 
Gardens. The Trust is working with the National Park Service to 
identify other projects through the National Mall Comprehensive 
Management Plan designed to achieve discernible improvements in the 
parkland, including work on plantings, grass, trees, irrigation, 
sanitation, trash collection, recycling, and park furniture. The Trust 
is also working to develop programs to enhance visitors' experience of 
the National Mall, in ways that will highlight the history and people 
that have made the National Mall one of the great urban cultural 
landscapes in the world.
    Question 8. There has been much discussion about using a 
revitalized South Capitol Street corridor as a site for new 
commemorative works. Your written testimony states that ``while South 
Capitol Street would provide multiple sites for cultural institutions, 
museums, and memorials as well as parkland, it is not envisioned that 
this would be managed by the National Park Service.'' Who would manage 
these national memorials, if not the National Park Service?
    Answer. South Capitol Street is undergoing a transition that has 
the promise of transforming it into a major boulevard in Washington, 
DC. In our judgment, South Capitol Street should not be added to the 
National Mall, but should be developed to have its own unique identity. 
It should not be a Federal enclave, but instead, should include a mix 
of uses, including sites for commemorative works and museums like 
Pennsylvania Avenue has between the Capitol and the White House. 
Without managing the streetscape, NPS could manage any future national 
memorials located on South Capitol Street. If a new commemorative work 
is located on privately-owned property, NPS management could be 
accomplished by the United States acquiring the property as parkland to 
be administered by the NPS, before or after the commemorative work is 
completed, or, if the new memorial is located on government property, 
jurisdiction could similarly be transferred to the NPS. Examples of the 
latter include the Law Enforcement Officers Memorial, the Francis Scott 
Key Memorial, and the African American Civil War Memorial.
    Question 9. All of the witnesses talked about the need to do a 
comprehensive management plan for the Mall. Your testimony stated that 
the National Park Service has begun a public planning process that 
would eventually result in a management plan.
    How long do you estimate it will take to complete the plan and how 
much will it cost?
    Answer. We estimate that it will take 3 years to complete a 
Comprehensive Management Plan. NPS currently has $230,000 programmed 
for this effort in FY 2005. The total cost of the plan will be 
determined during the scoping of the project; however, current 
estimates range from $1.2 to $2 million.

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                      East Coast Greenway Alliance,
              State Committee for the District of Columbia,
                                    Washington, DC, April 11, 2005.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Thomas: The purpose of this letter is to provide 
testimony to the Senate Energy Committee's National Parks Subcommittee 
on the occasion of your hearing Tuesday, April 12, 2005 regarding the 
future of the National Mall in Washington, DC. I am providing testimony 
in my capacity as State Committee Chair for the East Coast Greenway 
Alliance for the District of Columbia, and member of the national Board 
of Trustees of the East Coast Greenway Alliance. This is a volunteer 
position. Following is my testimony, respectfully submitted:

Statement of Robert S. Patten, State Committee Chair for the East Coast 
Greenway Alliance for the District of Columbia, Member of the Board of 
              Trustees of the East Coast Greenway Alliance

    The East Coast Greenway is a grassroots initiative to develop an 
off-road bicycle and pedestrian trail from the Canadian border near 
Calais, Maine to Key West at the tip of the Florida Keys. It is routed 
to pass through most of the major cities on the Atlantic Seaboard. It 
is often thought of as the urban counterpart to the Appalachian Trail. 
The initiative was launched more than ten years ago, and already 21 
percent of the route is completed and being used; another 24 percent is 
in various stages of planning, design or construction, and 21 percent 
of the balance of the route has been identified. While some of the East 
Coast Greenway will chart new trail routes through the Atlantic 
Seaboard states, most of it is simply a matter of knitting together 
existing and emerging local trails that were/are being created at local 
initiative to meet local needs.
    Here In Washington, DC, the National Mall has already been 
designated (June 2003) as a component of the East Coast Greenway (ECG). 
Currently, the ECG route through the District uses portions of the Fort 
Circle Route (NPS lands) and Metropolitan Branch Trail to reach the 
Mall, and leaves the District on the Memorial Bridge, using the Mount 
Vernon Trail to proceed south in Virginia.
    The designation of the National Mall to serve as part of the East 
Coast Greenway, was made by the National Park Service in June 2003, in 
cooperation with the District Department of Transportation and the East 
Coast Greenway Alliance. Plans for further recognition and development 
of this designation include posting the ECG trail blazes along the Mail 
route, and exploration of the potential to place a Mid-Point Marker 
somewhere on the Mall that will serve to highlight the route's national 
prominence. The mid-point of the Appalachian Trail is just northwest of 
DC near a state park in south central Pennsylvania. It is a custom for 
through hikers to stop and purchase, then consume, a pint (or half 
gallon) of ice cream at the park's general store before trekking on. 
Perhaps a different but similar tradition will emerge among the hikers 
and bikers stopping in Washington, DC the mid-point of the East Coast 
Greenway.
    Another major opportunity that the National Mall presents for the 
East Coast Greenway is exposure to the thousands, even millions of 
visitors that is receives every year, from every State in The Union. A 
modest information kiosk, with a map of the ECG, information about it's 
route and access points along the Atlantic Seaboard states, and the 
benefits of greenways and trails to our nation's health and heritage 
would be an appropriate installation to educate visitors to the 
Nation's Capital City.
    Beyond the ECG's use of the Mall pathways to traverse DC, the 
Alliance is also committed to a larger vision of what the Mali could 
both symbolize and actualize regarding human powered transportation and 
environmental stewardship. The Mall is a perfect location to 
demonstrate the utility, simplicity and joy of the bicycle. Actions 
should be taken to make the Mall bicycle and pedestrian friendly:

  <bullet> Bicycle parking should be upgraded to modem standards and 
        expanded dramatically, providing both secure and covered 
        parking and equipment that is aesthetically pleasing, secure, 
        conveniently located at all Mall destination sites and yet not 
        obtrusive on the landscape.
  <bullet> Bicycles should be available to rent for tourists in many 
        locations, such as at Union Station, Smithsonian Station, near 
        the Tidal Basin, on Hairs Point, and near the Lincoln and 
        Washington Monuments.
  <bullet> Designated and improved bicycle routes should be created on 
        existing paths on both the north and south sides of the Mall to 
        provide space for through bicycle traffic, so as to minimize 
        any potential conflicts with the many pedestrians and 
        sightseers enjoying the Mall area.
  <bullet> Intersections of Mall pathways and busy arterials should 
        receive safety treatments.
  <bullet> Signs and maps at select locations should provide bicyclists 
        route and other key information--where to get water, food, a 
        flat repaired, a phone or find a restroom.
  <bullet> Furthermore, these maps should show people how they can use 
        a bicycle to get to new monuments and museums that are located 
        off the Mall, such as in East Potomac Park, along the Anacostia 
        River, or into the neighborhoods of DC, which have their own 
        fascinating histories and cultural attractions.
  <bullet> Access to the south side of the Memorial Bridge should be 
        made safe for bicyclists, pedestrians and motorists. Crossing 
        the motor vehicle ramps at each end of the bridge is a scary 
        proposition.
  <bullet> Bicycles should be combined with and accommodated on new 
        water taxi's to provide quick and efficient movement of people 
        between destinations that are too far apart to walk:

    <bullet> across the Potomac to connect the Lincoln Memorial to 
            Arlington Cemetery and Roosevelt Island,
    <bullet> across the Tidal Basin between the FDR, Jefferson and 
            Washington Monuments, and
    <bullet> across the Washington Channel to connect the Southwest 
            Waterfront, Banneker Memorial and Hains Point.

  <bullet> Pedi-cabs should be provided for those who are too old, 
        young, infirmed or tired to pedal on their own.
  <bullet> Bicycle tours of the museums, monuments and city 
        neighborhoods should be aggressively marketed. The NPS and 
        private companies area already providing some tours, but more 
        could be done if the Mall's bicycle infrastructure is upgraded 
        and expanded.

    In short, the Mall should be crawling with people traveling on 
bikes, as it sometimes already is, but bicycle access and services 
should be comprehensive, ordered and state of the art easy to access 
and understand. In short, the Mall should be a model for the nation, of 
how to make a city bicycle friendly for both residents and visitors, 
while reducing car and bus congestion, improving air quality and 
increasing capacity for visitation.
            Sincerely,
                                          Robert S. Patten,
                                                             Chair.
                                 ______
                                 
                    National Mall Third Century Initiative,
                                    Washington, DC, April 19, 2005.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.

Re: Oversight Hearing on the National Mall

    Dear Senator Thomas: During the past week we have had an 
opportunity reflect on the recent Mall hearing, review the testimony, 
and speculate on the most appropriate course of future action. We would 
like to share these ideas with you as a means of summing up our 
contribution, and make a few adjustments to our proposals in the light 
of information gained during the hearing.
    As you are aware, the Third Century Initiative stood alone, amongst 
the four persons testifying, in identifying that the existing Mall 
management system is broken and needs fixing. This failure encompasses 
both policy development and long range planning. Our answer to this 
condition was not to propose a change in the functional 
responsibilities of the seven stakeholder agencies, but rather to 
create a means of causing them to coordinate their activities, and 
think about Mail-wide solutions. Creating a Conservancy (or Board of 
Regents) seemed to accomplish this end. This was intended to be a light 
touch, not a major overhaul. However, we were not surprised that all 
three agencies rejected this suggestion as unnecessary. Effective 
public participation in shaping policy is not desired by any of them.
    While all participants claimed that long range planning was already 
covered by the NCPC Legacy Plan of 1997, all agreed that a new plan is 
needed. No one commented on the Third Century Mall proposal, which is a 
direct derivative from The Legacy Plan, using the same parcels of land 
which NCPC recommends should be utilized to expand the monumental core. 
Both NPS and NCPC volunteered that they could undertake to develop a 
master plan for the past three years--that was news. The idea of a 
volunteer citizen group having the temerity to propose a visionary 
plan, particularly before Congress, is an anathema, and of course 
probably an embarrassment.
    Our plan is a vision framework not a concrete proposal. It is 
dependent on an understanding of the National Mall as an idea about our 
democracy, not a bounded piece of real estate. The initiative's 18 
month long program of public meetings, workshops, and task force 
research activity, has led us to an understanding that active public 
use has today become the critical determinate of the role of the 
National Mall. The Mall has evolved into a people's place, a stage for 
our democracy. It is now the nation's premier open space for public 
celebrations, recreation, demonstration and healing.
    There is another issue which must be considered. The NCPC/NPS 
Master Plan for locating memorials, which identifies 100 sites 
throughout the city where memorials might be placed is certainly a 
worthwhile real estate selection resource. On many occasions it will no 
doubt be useful, but it is devoid of cultural content. Sprinkling 
memorials throughout the city is not a substitute for a plan which 
expands the Mall in a manner which provides memorial sites with a 
strong cultural context. We believe that continuity with the existing 
Mall should be a prime criteria for evaluating expansion schemes. The 
National Mall should be viewed as a continuous entity.
    We believe that this plan should not be undertaken by either NCPC 
or NPS alone because both of these agencies have continually failed to 
recognize and appreciate that a profound shift has occurred in the 
public use of the Mall during the past century. Prior to the hearing we 
met with Mr. Cogbill and the entire NCPC staff; Mr. Childs, and the 
full Commission of Fine Arts; Mr. Parsons and his staff assistant. As a 
result we were very surprised when the topic of the importance of 
evolving public use was not brought up once during the hearing, except 
by me. To us, this is a signal that an independent group is needed to 
undertake the planning,
    After reviewing our proposal in the testimony, the initiative 
believes that it might make more sense to tackle the master plan first, 
and save the creation of the Conservancy until a plan (to conserve) is 
in place. Therefore we recommend that Congress create an independent 
McMillan-like commission now to undertake a long range visionary plan 
which will include addressing the enhancement of the First and Second 
Century Malls as well as expanding them by the creation of a Third 
Century Mall. Naturally, the stakeholders would be involved all the 
way. As would the public. This plan, like the McMillan plan, can be 
completed in one year.
    By identifying new memorial sites and establishing the Third 
Century Mall as the proper continuation of expansion which began in 
1901, the future evolution of the National Mall would be guided for 
another century. We support the continuation of the moratorium in the 
so called ``Reserve'' area.
    With the hope that you and the members of the subcommittee will 
look favorably on our proposal, we feel responsible to suggest a means 
of proceeding towards realization. There are three critical tasks:

    1. The National Mall must be defined as an entity, encompassing the 
areas designated as ``monumental core'' by existing legislation. 
Despite recent assurances, we believe that a full definition has not 
been yet settled in the minds of NPS,
    2, Direct NPS hold all new projects on the Mall until the master 
plan is completed--one year (give the designers a static target).
    3. Retain a small (3) group of well qualified professionals to 
advise the Senate staff in selecting a team of independent designers to 
undertake the planning. We have some suggestions as to several persons 
who would meet this description;

  <bullet> Charles Atherton, past executive of the Fine Arts 
        Commission, who served during the post-WWII explosion of 
        construction on the Mall, and who has reviewed the work of most 
        of America's leading designers.
  <bullet> Dorn McGrath, past Chairman of the Department of Geography 
        at GWU. He also directed the Center for Urban Studies, and is 
        past Chairman of the Committee of 100 on the Federal City, and 
        past president of the American Planning Association.
  <bullet> Lee Hamilton, ex Congressman, now Director of the Woodrow 
        Wilson Institute.

    We believe that the selection of the members of a Conservancy, 
while critical to the ultimate success of the master plan, might begin 
slowly. The Plan which is produced, if successful, may intrigue many 
excellent potential members. This would make assembling top talent much 
easier.
    The initiative greatly appreciates your including us in the 
oversight hearing. We have nine task forces which continue to study and 
research a variety of topics which are of use in enhancing and 
expanding the Mall. The first of our projects, the Mall history/map 
brochure, will start being distributed in the next week or so. We 
believe that the on-going work of the Third Century Initiative will be 
useful to the design commissioners, once they are selected. We will be 
most willing to present them either in writing or in person.
            Sincerely,
                                      W. Kent Cooper, FAIA,
                                        Coordinator of Task Forces.
                                 ______
                                 
                       National Coalition to Save Our Mall,
                                     Rockville, MD, April 20, 2005.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Thomas: Thank you for holding the April 12 hearing and 
inviting the Third Century Initiative of the National Coalition to Save 
Our Mall to testify. We believe that this was the first crucial step 
towards developing a Third Century vision for the National Mall.
    At the hearing, you asked if Congress needs to establish a new 
McMillan Commission. Our answer is yes. Despite Congress's best 
attempts to address problems with the 2003 amendments to the 
Commemorative Works Act, and the NCPC's Legacy Plan and other planning 
initiatives, the pressures on the Mall continue. As Senator Akaka 
noted, piecemeal solutions cannot substitute for long-range plans. 
Divided management has prevented coordinated planning. Even witnesses 
who spoke against the Third Century Initiative's ideas agreed to 
Congressional leadership for future Mall planning.
    Your follow-up question about who should be on the Commission is 
equally important. This is a task that demands a high-level, 
independent, and visionary group of individuals. We agree with Mr. 
Childs of the Commission of Fine Arts that the Commission should be 
composed of the finest architects and artists in the nation. But it 
also should include planners, historians, educators, and scientists of 
national stature. As Mr. Cooper of the Third Century Initiative pointed 
out, the Mall is our meeting place for democracy, not simply a work of 
architecture and design. A plan for the next 100 years requires 
imagination, inspiration, and a deep understanding and appreciation of 
how citizens experience on the Mall the enduring value of our founding 
ideals.
    You recognized that planning and management are two separate issues 
and asked what a Mall coordinating management group might look like. 
Mr. Childs raised the Central Park Conservancy model, which, he pointed 
out, did not usurp jurisdiction from the parks commission. Mr. Cooper 
stated that all agencies could do their jobs better if there were a 
conservancy-type organization to help them coordinate planning and 
management. Senator Salazar expressed his surprise that, given the 
Mall's symbolism and multiple jurisdictions, a National Mall 
Conservancy did not already exist. It is an idea, he said, that makes 
sense. We agree. While the agency representatives were understandably 
reluctant to accept a new management entity, their suggestion that the 
National Park Service's Trust for the National Mall could fulfill this 
conservancy role is mistaken. Giving NPS management authority over the 
Mall's six or seven separate jurisdictions would not work. We believe 
that the Third Century Commission would be able to advise Congress 
about the make-up and function of a Mall Conservancy once their 
planning is well underway, or completed. They would know best what is 
needed to ensure coordinated management and implementation of the Third 
Century vision.
    Senator Akaka observed that pressures on the Mall will continue and 
proposed that the Mall could expand. We agree. Even Mr. Cogbill spoke 
of intensification and his concern that we don't want to lose the open 
space and have people tripping over memorials. The way to solve that is 
to enlarge the Mall. Future generations should see the Mall as a place 
of possibilities for themselves, open to new memorials, museums, and 
public activities. History does not stand still, nor should the Mall. 
The McMillan Commission faced the same problems a century ago. Their 
grand vision expanded the Mall to create memorial sites and vast new 
parkland. We can be as visionary today in service to the entire nation.
    Mr. Parsons of NPS rejected expanding the Mall and instead spoke of 
100 museum and memorial sites off the Mall. But groups don't willingly 
choose off-Mall sites. Instead, they are forced to select from parcels 
of real estate that have no meaningful connection to the Mall. Mr. 
Cogbill spoke of expanding the ``Monumental Core'' for new memorials 
and museums. But we have learned from the public that the words 
``Monumental Core'' and ``Area 1'' are meaningless administrative 
designations that lack the historical and cultural meaning of the Mall. 
People want to be ``on the Mall'' because of its powerful associations 
and symbolism.
    A possibility exists to launch the Mall expansion immediately with 
a new museum and associated public uses. Site selection for the 
National Museum of African-American History and Culture is now underway 
by the Smithsonian. The Banneker Overlook site at the end of L'Enfant 
Plaza is preferred by many agencies (including NPS and NCPC) and 
citizens groups as having the greatest potential for creating a 
prominent and iconic destination point. NCPC identifies it as part of 
the expanded ``monumental core.'' However, there has been 
understandable hesitation by others, including the sponsors, because it 
is ``off'' the Mall. The Banneker site would enable the museum, instead 
of being shoehorned into a site on the existing Mall that restricts the 
potential public use, to exploit the role of the museum and its 
surrounding space for the expression of democracy. All it would take is 
for Congress to designate the Banneker site, and a bridge connection to 
East Potomac Park, as ``the Mall'' and thus initiate the expansion of 
the Third Century Mall.
    Overall, we were pleased to see that the witnesses representing the 
National Park Service, the National Capital Planning Commission, and 
the Commission of Fine Arts agreed with you and subcommittee members on 
the need for a new long-term plan, and that the CFA supported the 
concept of a Mall Conservancy. The disagreement between the agency 
representatives and the Third Century Initiative's Mr. Cooper seemed to 
be regarding who should do the planning and how the Conservancy might 
function. The agency representatives seemed preoccupied with protecting 
their turf. It was surprising and disappointing that they never 
mentioned ``the public,'' let alone the Third Century Initiative's 
ideas which came out of four public workshops and months of 
consultation with the agencies' staff and commissioners. Sen. Salazar 
spoke of his personal feelings for the Mall, and the many meanings it 
holds for different people. That is exactly what we heard from the 
people who participated in our forum and workshops, but what we didn't 
hear from the NCPC, CFA, and NPS. The public gave the Mall powerful 
meaning in the twentieth century, as the meeting place of democracy, 
and the public voice needs to be heard in planning and managing its 
future. The Conservancy would serve that role.
    Your question regarding the NPS's plan for removing the concession 
trailers and stables near the Lincoln Memorial is one in which the 
Coalition is particularly interested. New construction at the Lincoln 
Memorial is a problem we have tried to bring to Congress's attention. 
So we were disappointed to hear that the NPS intends to move forward 
with construction of two new concession buildings without a plan. The 
buildings' size, location, and lack of restroom facilities raise 
serious historic preservation issues as well as questions of public 
safety. These buildings violate NPS's own 1976 master plan. We wonder 
how they are consistent with the Congressional moratorium. Mr. Parsons 
stated that he has submitted an interim plan. However we have not seen 
it. We implore you to take action on this before it's too late. The NPS 
should stop any construction activity until it has developed, with the 
input of the review agencies and the public, the Congressionally 
mandated concession plan and integrated it into the larger Third 
Century Mall vision.
    You stated, Senator Thomas, that this is an opportunity for all of 
us working together to plan a vision for the Mall for the 21st century. 
We agree. The new, independent McMillan Commission would work with 
Congress, the agencies, and the public in conceiving a grand plan that 
serves the entire nation. Current plans can provide a framework. NCPC's 
Legacy Plan and Memorials and Museums Master Plan, as well as the South 
Capitol Street plan, show where geographically the Mall could expand. A 
Third Century Commission would show us how that expansion would 
revitalize the Mall's historic concept and propel us toward a grand 
future for this premier symbol of American democracy.
    The Third Century Initiative has, over the past eighteen months, 
been gathering information, comments, and ideas from the public, as 
well as the agencies and Congress, on the future of the National Mall. 
We are pleased to provide our findings, and the continuing work of our 
nine task forces, to Congress and to the Third Century Commission to 
enrich the comprehensive planning effort to come. We welcome the 
opportunity to work with you in developing ideas that came out of the 
hearing.
    Please include this letter in the record of the hearing of April 
12, 2005.
            Sincerely,
                                 Judy Scott Feldman, Ph.D.,
                                                          Chairman.
                                 ______
                                 
                 Statement of Richard Moe, President, 
              The National Trust for Historic Preservation
    We appreciate this opportunity to submit remarks on behalf of the 
National Trust for Historic Preservation concerning review management 
and planning issues for the National Mall, including the history of 
development, security projects and future development plans.
    For more than 50 years, the National Trust has been helping to 
protect the nation's historic resources. As a private nonprofit 
organization with more than a quarter million members, the National 
Trust is the leader of a vigorous preservation movement that is saving 
the best of our past for the future. Washington's National :Mall, as 
planned by Pierre L'Enfant in 1791 and revised and expanded by the 
McMillan Commission in 1901, resonates with Washington, DC residents 
and Americans generally as a paradigm of great democratic civic design. 
The significance of the city's monuments, and public buildings and 
landscape on the Mall cannot be disputed--We believe that sustaining an 
open, accessible and beautiful monumental core at the heart of the 
federal city reflects our democratic principles and should not be 
compromised.
    We are sympathetic to concerns over the current inaccessibility of 
the Mall and monuments, and we regret the cumulative effect of 
construction and barriers. The ad hoc Jersey Barrier ``systems'' 
greatly detract from the monuments' aesthetic appearance and the 
visitor experience. We understand that much of the current situation, 
in terms of inaccessibility and visual impact due to construction, is 
temporary. Through consultation under Section 106 of the National 
Historic Preservation Act, the National Trust has worked with the 
National Park Service and others to determine how best to meet security 
needs and preservation and accessibility goals for the Mall, and we 
believe that, overall, the process is working effectively. The National 
Park Service has taken pains to improve its Section 106 procedures for 
the Mall and demonstrated its commitment to preservation by ensuring 
that almost all of the alterations are reversible--We commend their 
efforts.
    We take this opportunity today to emphasize our support for 
maintaining the symbolic and physical accessibility of the National 
Mall by ensuring that security measures are minimal, low-impact, and 
reversible. Furthermore, as pressure continues for additional 
memorials, monuments and visitor facilities to be built, we believe 
that alternative sites must be located and advocated to preserve the 
traditional monumental core, including parkland, embodied by the 
L'Enfant and McMillan plans. We strongly encourage the Subcommittee to 
support the development of a comprehensive National Park Service master 
plan that will articulate the historic and future vision for the mall, 
addressing management, maintenance and changes to the traditional 
monumental core as well as additional sites for public buildings and 
open space.
    A master plan could build on the work already completed through the 
National Capital Planning Commission's Legacy Plan, incorporate 
security changes, address the concerns of the general public, and 
ensure coordinated management and maintenance of this significant and 
irreplaceable tableau of American monuments, memorials and open space--
Moreover, while we understand the need for heightened security, we 
believe that visually intrusive barriers, serving no purpose other than 
security, compromise the spirit of our monuments and memorials to 
freedom and democracy--As part of the development of a master plan for 
the Mall, we urge the Subcommittee to recommend comprehensive, 
preservation-sensitive redesign for areas requiring security changes. 
In many cases, creative landscaping and features such as walls, benches 
and planters can meet security needs while providing an attractive, 
welcoming and historically sensitive setting for visitors to the Mall. 
We recognize that redesign for select areas may require more funding 
than is currently allocated to install security measures. As a treasure 
for present and future Americans, the National Mall deserves to benefit 
from the best planning and design techniques available.
    Mr. Chairman and members of the Subcommittee, the National Trust 
strongly supports continued vigilance in ensuring that the National 
Mall is preserved and maintained for all Americans. Security changes 
and proposed new construction need not damage the visitor experience, 
nor compromise the historic and symbolic integrity of the monumental 
core. We believe that comprehensive planning and management for the 
Mall as a whole, incorporating well-designed security measures and a 
vision for sites beyond the traditional core, will help protect this 
resource for future generations--We thank you for the opportunity to 
submit this testimony and look forward to working on these issues with 
the National Park Service and others.
                                 ______
                                 
    Statement of Paul Strauss, District of Columbia (Shadow) Senator

    Chairman Thomas, Senator Akaka, and members of this Sub-Committee, 
I am Paul Strauss, the elected United States Senator for the District 
of Columbia. I thank you for the opportunity to address you today 
regarding the National Mall. Since the National Mall is an important 
asset to my constituents and to visitors from around the world, I would 
like to weigh in on one of the important issues this Sub-Committee will 
address today: the expansion of the National Mall.
    With the possible exception of the selected groups clamoring for 
their particular monument or museum to be built on the National Mall, 
almost all other organizations agree that the National Mall is already 
overcrowded. The World War II Memorial and the National Museum of the 
American Indian were built on some of the last available land on the 
already-expanded National Mall. While these new additions are certainly 
valuable, the National Mall itself has a vibrant history--as a national 
gathering place, as a place to celebrate, a place to petition our 
government for the redress of grievances, or simply as a place to enjoy 
the great outdoors.
    It would be detrimental to further expand the National Mall with 
more pavement or to accommodate new buildings. Most importantly, 
expanding the National Mall to meet the needs of additional monument 
advocacy organizations will overburden the already challenged security 
system in place. Additionally, your visiting constituents deserve 
better infrastructure to facilitate their tourist experience here in 
their national capital. Monuments and memorials in alternate locations 
can provide better services, greater food options and more convenient 
access to parking and public transportation than expanding the crowded 
National Mall could ever offer.
    No one is suggesting that this next century will be without 
appropriate subjects for national commemoration. As our nation's 
history endures, the number of great heroes deserving recognition for 
their bravery and sacrifices will surely continue.
    They should be honored, but quite simply there is another better 
option. Rather than opening land adjacent to the existing National Mall 
for more monuments and memorials, organizations should be encouraged to 
locate deserving tributes elsewhere in the District of Columbia.
    As special and unique as the Mall is, it is simply not the only 
appropriate land in the District of Columbia which can be made 
available to honor those who have contributed to American history and 
cultural development.
    Within these hallowed halls of this very Capitol, an example from 
our own history provides the guidance which illuminates the path before 
us now. I refer to the historical tradition of ``National Statuary 
Hall,'' where monuments to leading citizens of the several states were 
once placed collectively. When it became clear that this one room could 
no longer accommodate all the heroes of our growing nation, Congress 
did the only sensible thing. It began to place additional statues on 
other areas of the Capitol. In doing so, we did not diminish the honor, 
but instead preserved the beauty of the Old House Chamber which still 
holds many of those statutes.
    Encouraging visitors to travel beyond the National Mall to see more 
of this great city is only one of the many benefits of an enlightened 
monument policy. The African American Civil War Memorial, located along 
U Street in Northwest Washington, is a shining example. Visitors to 
this memorial have an opportunity to experience a diverse, eclectic 
neighborhood with excellent restaurants, shops and entertainment. 
Similarly, new monuments and museums can be built in Anacostia, in 
Brookland, in Columbia Heights and in other neighborhoods that are 
Metro accessible and equally capable of accommodating greater numbers 
of visitors to the District of Columbia.
    On behalf of my constituents, I thank you for the opportunity to 
submit my testimony on this important issue. I look forward to working 
with this Sub-Committee in the future on this and other issues germane 
to the District of Columbia. In closing, let me thank Ms. Melissa 
Ballowe, of my staff, for her assistance in preparing this statement.
                                 ______
                                 
                                           Lewis D. Junior,
                                   Chevy Chase, MD, April 17, 2005.
Mr. Thomas Lillie,
Professional Staff Member, Committee on Energy and Natural Resources, 
        U.S. Senate, Washington, DC.

Subject: Honor our Mall

    Dear Mr. Lillie: I got your email address, courtesy of Judy 
Feldman, since I have no fax capability right now but, still, wanted to 
convey some thoughts for the record regarding further developments 
concerning our mall in Washington.
    I first came to Washington (to school) in 1947. I have lived in or 
been continually associated with Washington, DC. ever since. Although I 
currently live a hundred yards into Maryland, I continue to maintain my 
ties since I have a daughter resident in the District, I own some real 
estate there and, last, I am a little sentimental about ``Our Nation's 
Capital'' and our great mall which in character and setting is one of 
the world's great spaces.
    I won't run on about the never ending, and often well warranted, 
proposals to memorialize him or her, or this or that, by squeezing 
something commemorative onto the mall. You surely are even more 
sensitive to that problem than I could ever be. But I do think that the 
only way to deal with this ceaseless tide is to extend the mall from 
its present confines to adjacent and other areas of the city.
    Some of the proposals recently put to you seem eminently sensible. 
The new areas should and would be places of pride and serenity, 
allowing national memorialization of worthy people and events without 
robbing our present mall of its open green serenity and spacious 
dignity. (Another consideration, but also important, is how this 
program would bring vitality and beauty to areas of Washington already 
badly in need of help.) To continue wedging new structures into the 
already diminished spaces of the mall does little to dignify the 
honoree and does further serious indignity to our national treasure.

                                           Lewis D. Junior,
                                                          FSO, Ret.
                                 ______
                                 
         Statement of Elena Sturdza, Architect, Cabin John, MD
                                the idea

    Searching for the most appropriate site during the 2000--2001design 
process for the World War II Memorial, we came up with the idea of 
extending the National Mall along its central axis across the Potomac 
River up the hills in Virginia, creating several memorial sites with 
breathtaking panoramic views of the Arlington Cemetery, the Potomac, 
the Mall and the city beyond, and incorporating the river into the 
National Mall.

                        A GREATER NATIONAL MALL

    Because on the National Mall no new memorials are permitted, we 
proposed the creation of prime memorial sites by extending the Mall 
using the McMillan Plan design concept to create a continuous unitary 
space.

                          A NATURAL EXTENSION

    The Olmsteadian Landscape will cross the Potomac on pedestrian 
bridges to create terraced reflective pools surrounded by double rows 
of trees up on the Virginia hills, uniting the Mall with the Arlington 
National Cemetery, the Iwo Jima Memorial, and the Women in the Military 
Memorial.

                            THE RENEWED IDEA

    We renew our proposal today with two regrettable modifications:

    1. Our proposed site for the WWII Memorial will be available to be 
used for a future memorial of significant national importance instead 
of holding the most beautiful WWII Memorial, and
    2. The Rainbow Pool site will not be enhanced as we envisioned it 
and, instead, has lost its magic power of offering views of and at the 
same time reflecting the trees, the people, the birds, and the 
Monuments over the ever changing sky.

    Please see below our proposal submitted in 2001 to the Task Force 
on Memorials for inclusion in the Memorial and Museums Master Plan.
    Comments on the Draft for the Memorials and Museums Master Plan
    We respectfully ask the Task Force on Memorials to include in the 
Master Plan our important findings: several new memorial sites on the 
central axis of the Mall.

                           NEW MEMORIAL SITES

    In the search for the project site for the World War II Memorial we 
discovered a new dimension for the National Mall--We created several 
new sites along the central axis of the Mall in the hilly park next to 
Arlington Cemetery, between the Iwo Jima Memorial and the Netherlands 
Carillon (see the two attached drawings).*
---------------------------------------------------------------------------
    * The drawings have been retained in the committee files.
---------------------------------------------------------------------------
                 LOOKING BACK INTO HISTORY FOR ANSWERS

    At the time of the construction of the Lincoln Memorial, one of the 
boldest of the Senate Park Commission plans was to extend the Mall to 
the Potomac River. Anchoring these remarkable axes would be the 
Capitol, the Washington Monument and the new Lincoln Memorial.
    The Park Commission envisioned the Mall as a pageant of American 
history: from the creation of the government (the Capitol) to the 
nation's first leader (Washington Monument) to the savior of the Union 
(Lincoln Memorial).

             THE PERFECT SITE FOR THE WORLD WAR II MEMORIAL

    Moving along the same line of thinking, we can continue beyond the 
Lincoln Memorial, to the event that changed world history and made the 
U.S. the leader of the free world. In the same way that land was 
created for the Lincoln Memorial, we can create land for the World War 
II Memorial by extending the Mall farther into the Potomac River. This 
is the perfect site for the Memorial: on an island of its own, over the 
water, at the tip of Roosevelt Island, on the central axis of the Mall.

        FOLLOWING THE SPIRIT OF L'ENFANT AND MCMILLAN COMMISSION

    By doing that, the Mall continues, as thought by its original 
designers, to be a pageant of American history. The location of the 
monuments, in relations to one another, should correspond to their 
place in history. On the site of the existing National Mall we should 
locate only memorials to events that shaped the history of this 
country. Across the river we should locate memorials to events which 
brought America to the international arena.
    It is very suggestive to locate memorials to overseas events across 
the river. While crossing the river, we can imagine that and we are 
crossing the oceans to reach the places where the events happened. The 
World War II took place over the oceans as well as on the home front. 
The Memorial, surrounded by its reflections, will be visible from far 
away along the river, and from the whole Mall.

                   THE MALL EXTENDS ACROSS THE RIVER

    We can extend the mall beyond this site, up the hills above the 
river. We can create several terraced overlooks, which may become 
future Memorial sites situated on the central Axis of the Mall, along 
terraced reflective pools and walkways shaded by double rows of trees.

                  THE BRIDGES BECOME PART OF THE MALL

    The Memorial Bridge will become a pedestrian bridge with one lane 
each way from the Mall to Arlington Cemetery. It will become a 
promenade, with benches shaded by trees. Symmetrically, a new Roosevelt 
pedestrian bridge, and tunnel will connect the Mall to Roosevelt 
Island. The bridge will also be a promenade with benches shaded by 
trees.
    It will he a pleasure to cross the bridges on foot without the cars 
zipping by, with their noise covering the sound of the birds and the 
river. It will be a pleasure to sit in the shadow, in the cool breeze 
above the river and admire the sweeping views of the Mall, the river 
itself, the Arlington Cemetery, and the city beyond.

                 IMPROVING THE LINCOLN MEMORIAL GROUNDS

    All traffic around the Lincoln Memorial will enter underground. 
Glass pools will cover the main circle and its radial roads to bring 
light to the street below. Elevators from the Park above can access two 
levels of underground parking with shops and restaurants around 
courtyards.

                       CONTINUOUS SHADED WALKWAYS

    The two double rows of trees which border the reflective pool will 
continue around the Lincoln Memorial, along the two pedestrian 
promenades on the two bridges, into the park across the river, up the 
hills, on both sides of the new terraced reflective pools, around the 
new memorial sites, and finally to the last memorial site, the highest, 
with the most impressive views. This memorial will mark the new end of 
the National Mall.

               THE POTOMAC RIVER BECOMES PART OF THE MALL

    Terraces, parks, glass reflective pools and walkways, will cover 
all the roads along the river. The river itself will become pail of the 
Mall.

                  COMPLETING THE HISTORY OF OUR NATION

    A Memorial to the Founding Fathers should be built around the 
Rainbow Pool, next to the Washington Monument. Statues of all the most 
important Founding Fathers and the names of all the others should be 
placed around the Rainbow Pool. This is the perfect site for it: on the 
central axes of the Mall, after Washington, before Lincoln.

                   NEW LOCATIONS WITH DRAMATIC VIEWS

    The Vietnam and the Korean War Memorials should be relocated to the 
other end of the Memorial Bridge, on the natural slope by the Potomac 
River. Both events took place overseas and we should locate their 
Memorials across the river. These new locations would be more dramatic 
with views along and across the river of the whole National Mall. There 
would be ample space for visitor centers and parking within the natural 
slope of the site.

                WE SHOULD NOT WAIT UNTIL IT IS TOO LATE

    It is very important to designate this land now to the National 
Mall, before it is taken for some other less important purposes.

                       A Master Plan for the Mall

    We strongly believe that a Master Plan based on our proposal must 
be immediately produced to secure the continuation of the Mall in the 
McMillan Plan concept, not in a disorderly way, and to facilitate its 
implementation. It will provide prime memorial sites along the central 
axis of the Mall and connect the Mall with many more memorial sites.


</pre></body></html>
